<html>
<title> - RECENT DEVELOPMENTS IN TIBET: ONE STEP FORWARD, THREE STEPS BACK</title>
<body><pre>[Senate Hearing 106-869]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-869

    RECENT DEVELOPMENTS IN TIBET: ONE STEP FORWARD, THREE STEPS BACK

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON EAST ASIAN AND
                            PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 13, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-771                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

             SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS

                    CRAIG THOMAS, Wyoming, Chairman
JESSE HELMS, North Carolina          JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                RUSSELL D. FEINGOLD, Wisconsin
GORDON H. SMITH, Oregon              PAUL D. WELLSTONE, Minnesota
LINCOLN D. CHAFEE, Rhode Island      ROBERT G. TORRICELLI, New Jersey

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Ackerly, John, president, International Campaign for Tibet, 
  Washington, DC.................................................    17
    Prepared statement...........................................    20
Napper, Dr. Elizabeth, co-director, Tibetan Nun's Project, San 
  Geronimo, CA...................................................    31
    Prepared statement...........................................    33
Sperling, Dr. Elliot, professor, Department of Central Eurasian 
  Studies, Indiana University, Bloomington, IN...................    23
    Prepared statement...........................................    26
Taft, Hon. Julia V., Special Coordinator for Tibetan Issues, 
  Department of State, Washington, DC............................     2
    Prepared statement...........................................     6

                                 (iii)

  

 
    RECENT DEVELOPMENTS IN TIBET: ONE STEP FORWARD, THREE STEPS BACK

                              ----------                              


                         TUESDAY, JUNE 13, 2000

                           U.S. Senate,    
                 Subcommittee on East Asian
                               and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.

    The subcommittee met at 10:03 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Craig Thomas (chairman of the 
subcommittee) presiding.
    Present: Senators Thomas and Kerry.
    Senator Thomas. Good morning. I think we will go ahead and 
begin.
    The Subcommittee on East Asian and Pacific Affairs is 
meeting today to examine and discuss the situation in Tibet and 
what progress, if any, is being made by the central Chinese 
authorities in Beijing to safeguard the human, religious, and 
economic rights of the people of Tibet. I will keep my opening 
statement brief so we can hear from our witnesses, which is the 
more important thing in this hearing.
    At least for some time, this is the first subcommittee 
hearing dedicated solely to the topic of Tibet. I believe it is 
a good idea to make it more visible. Many people are interested 
in what is going on in Tibet and yet some of these other things 
sort of overshadow it sometimes.
    In addition, it is the first hearing on Tibet as a topic 
since the creation of the Office of Special Coordinator for 
Tibet within the State Department. So, I believe it is overdue.
    There has been a great deal of focus in the Congress on 
China, of course. Most of the focus, not surprisingly, has 
centered around trade, WTO, and granting China permanent normal 
trade relations [PNTR] status. It is true that some of the 
debate on the trade bill in the House mentioned that China's 
current policies on Tibet were difficult and a problem. But I 
believe, in general, Tibet has sort of fallen off our radar 
screen and hopefully this hearing will raise its profile.
    I wish I could say things have gotten better in Tibet since 
I became chairman of this subcommittee in 1994. I am not sure 
that they have. China's treatment of Tibetans, especially those 
with religious backgrounds, continues to figure prominently in 
the State Department's religious human rights reports, hardly 
an encouraging distinction. Beijing still obstinately refuses 
to sit down with the Dalai Lama to discuss the wide range of 
issues facing the Tibetan people, and insists on installing 
their own Panchen Lama, much to the despair of some of the 
Tibetans.
    There is one area we have arguably improved. That is the 
economy. Yet, of course, it has its down sides in the tradeoffs 
that have taken place there. It has raised the living standards 
apparently for Tibetans, but at some cost to their tradition 
and cultural identity.
    So, I hope this morning we can bring ourselves up to date 
on the situation in Tibet, what steps the U.S. Government, 
through the Office of Special Coordinator for Tibet, is taking 
to ensure that Beijing both halts its violations of accepted 
international norms of human rights, and resumes the kind of 
dialog that is meaningful with the Dalai Lama.
    I also would suggest that, for those of you who are 
testifying, if you have a vision of where we want to be, it 
would be good to share that. It seems to me in the things we do 
around here we get all involved, but we are not always clear as 
to whether the things we are doing are going to lead to our 
perception of where we ought to be, not only in this instance 
but in many. So, if you would give that some thought as we go, 
I think that might be useful.
    Let me welcome, first of all, the Honorable Julia Taft, 
Special Coordinator for Tibetan Issues from the Department of 
State. Ms. Taft, welcome. Glad to have you here.

   STATEMENT OF HON. JULIA V. TAFT, SPECIAL COORDINATOR FOR 
      TIBETAN ISSUES, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Taft. Thank you very much, Mr. Chairman. I am really 
very pleased that you are holding this hearing. We have a 
number of initiatives that are underway, but as you mentioned, 
sometimes the issue of Tibet does get eclipsed by other higher 
profile questions, and the fact that you are holding this 
hearing I think will help bring a balance to that.
    I was appointed 18 months ago to serve as Special 
Coordinator for Tibet and have had really two primary goals. 
One is to promote the substantive dialog between the Chinese 
Government and the Dalai Lama and his representatives, and 
second, to help sustain unique culture, religious, and 
linguistic heritage of the Tibetan people. Both of these tasks, 
as you have noted, are quite difficult.
    Disputes over Tibet's relations with the Chinese Government 
have a long and complex history dating back centuries. Rather 
than focusing on this historical perspective, I would rather 
just focus on the current circumstances in Tibet and highlight 
some of the major developments over the past year.
    As our human rights report on China for 1999 makes clear, 
tight controls on religion and other fundamental freedoms 
continued and intensified during this year in which there were 
very many sensitive anniversaries and events. The report 
documents in detail widespread human rights and religious 
freedom abuses. Besides instances of arbitrary arrests, 
detention without public trial, and torture in prison, there 
was also an intensification of controls over Tibetan 
monasteries and on monks and nuns. Religious activities were 
severely disrupted through the continuation of the government's 
patriotic education campaign that aims to expel supporters of 
the Dalai Lama from monasteries and views the monasteries as a 
focus of anti-China separatist activity.
    The U.N. High Commissioner for Refugees reported last year 
that 2,905 Tibetans left Tibet during the year and went to 
India via Nepal. The Tibet Information Network [TIN], reported 
that approximately a third of all of those refugees had left to 
escape the campaigns and to pursue religious teaching in India. 
In fact, Tibet's two most prominent religious figures have left 
Tibet in the past 20 months reportedly for religious 
persecution reasons.
    The 14-year-old Karmapa, who is the leader of the Kagyu 
sect and the third most revered leader in Tibetan Buddhism, 
left Tibet in late December and arrived in India on January 5 
to pursue religious teachings in India.
    Agya Rinpoche, a former abbot of Kumbum Monastery, a senior 
Tibetan religious figure and an official at the Deputy Minister 
level, left China in November 1998. Among the reasons he said 
he left were the increased pressure on Kumbum Monastery, 
including the stationing of 45 government officials and 
imposing stringent patriotic re-education requirements. It was 
demanded of him by the government that he support and 
legitimatize the campaign of Gyaltsen Norbu, the boy recognized 
by the Chinese leadership as the 11th Panchen Lama. For these 
reasons, he left.
    You mentioned in your opening comments about China's 
economic progress, and this is true. Although China has devoted 
substantial economic resources to Tibet over the past 20 years, 
we have to recognize that China's poorest region is still 
Tibet. Language problems severely limit educational 
opportunities for Tibetan students. Illiteracy rates are said 
to be rising sharply, and most non-urban children are 
chronically undernourished.
    Recent reports suggest that the privatization of health 
care, increased emphasis on Chinese language curriculum, and 
continuing Han migration into Tibet are all weakening the 
social and economic position of Tibet's indigenous population. 
Lacking the skills to compete with Han laborers, ethnic 
Tibetans are not participating in the region's economic boom. 
In fact, rapid economic growth, the expanding tourism industry, 
and the introduction of more modern cultural influences have 
also disrupted traditional living patterns and customs, causing 
environmental problems and threatening the traditional Tibetan 
culture.
    Because of the deterioration of the Chinese Government's 
human rights record, the U.S. Government introduced a 
resolution focusing international attention on China's human 
rights record at this year's session of the U.N. Commission of 
Human Rights in Geneva in March. Unfortunately, the Chinese 
countered with a no-action motion, which effectively blocked 
discussion and resolution of this vote.
    In addition to addressing the human rights situation in 
China through multilateral fora, the President and Secretary 
Albright have continued to urge the Chinese leadership to enter 
into a substantive dialog with the Dalai Lama or his 
representatives. President Jiang said at our June 1998 summit 
in Beijing that the door to dialog and negotiation is open as 
long as the Dalai Lama publicly affirms that Tibet is an 
inalienable part of China and that Taiwan is a province of 
China. Despite our repeated efforts to foster such a dialog and 
the willingness expressed by the Dalai Lama to enter into 
discussions, the Chinese leadership has not followed up. We 
remain committed to pushing this issue even though at this 
point we are seeing no progress.
    We have also continued to raise individual cases of 
concern. Probably the most notable was the whereabouts of 
Gendhun Choekyi Nyima, who was the boy that the Dalai Lama has 
recognized as the Panchen Lama. He and his parents have been 
held incommunicado for the past 5 years. This past fall, we 
received some very disturbing reports that the boy had died in 
Gangsu province and was cremated in secrecy. As soon as we 
heard this, the embassy made formal representations expressing 
concern about his whereabouts. We subsequently heard from the 
Tibetan exile community. They did not believe that these 
stories were true, but we have continued to urge the Chinese to 
at least show this child to some international community figure 
just so that we can assure his safety and well-being. We want 
him identified. We want him returned home freely. To this date, 
the Chinese Government has continued to refuse any direct 
confirmation of his well-being.
    In response to an inquiry from Congress, the Chinese 
Government acknowledged the whereabouts and earlier ill health 
of Ngawang Choephel. He is the Tibetan ethnomusicologist and 
former Middlebury College Fulbright Scholar who was 
incarcerated in 1996 and is now serving an 18-year sentence on 
charges of espionage. Throughout the past year, we and Members 
of Congress have continued to raise the plight of Ngawang and 
have urged that the Chinese release him on medical grounds as a 
humanitarian gesture because of his illness.
    We have also been pressing for his mother, who is Sonam 
Dekyi and living in India, to be able to go and visit her son. 
This is very important because, according to Chinese law, a 
parent can visit a child in incarceration, and we are pressing 
that this be done. We have heard recently that the Chinese have 
agreed to allow this visit to go forward. We want to thank 
very, very much both the House of Representatives and Members 
of the Senate who have been very helpful on this.
    Now, among the things that we have been working on to get a 
vision of where we want to go is to figure out if it is just 
the United States who cares about the Tibetan issue. I have 
spent quite a lot of time meeting with representatives from 
other countries, particularly Western countries, who also have 
constituencies that are quite supportive of Tibet and have 
their own human rights dialogs with China. We think it is very 
appropriate that these dialogs be pressed forward with the 
Chinese and we are also exploring how we can join forces with 
other members and parliaments in the West to be able to send a 
very strong signal to China that we believe they must go 
forward with the dialog.
    In my full testimony, I go into a number of details on what 
we have been doing with other countries and all parliamentary 
fora, but I would like to spend a couple of minutes talking 
about what we are doing as the U.S. Government to actually 
physically help the people that are in exile and help those 
that are still in Tibet.
    In January, I visited Dharmsala in my capacity as Assistant 
Secretary for Population, Refugees and Migration. The purpose 
of this trip was to evaluate the $2 million that we spend on 
assistance programs to Tibetan refugees, and I can assure you 
this money is well spent. We had an opportunity to meet with 
many of the members of the Central Tibetan Administration and 
found a really overwhelming sense of good will and a strong 
community in exile.
    What was especially impressive was the fact that so many of 
the Fulbright scholars who had benefited from the U.S. 
Government program had returned. Ninety-six percent have 
returned and are working somewhere either in southern India or 
in Dharmsala to reinvest what they have learned and to help the 
Tibetan settlements. I think this shows what an incredible 
contribution the Fulbright opportunity has given to them.
    We also viewed the recent arrivals that had come across the 
Himalayas into Nepal and then come down to India at the transit 
center. There the U.S. Government is funding the transit center 
reception facilities and health care, as well as some 
vocational training programs. Again, this assistance is very 
much appreciated.
    While most of our programs have focused on the Tibetans in 
exile in Nepal and India, we have also shared the concern of 
the Dalai Lama about the condition of people in Tibet that have 
not had a chance to leave. In this regard, Congress last year 
earmarked $1 million for programs of cultural and sustainable 
development for Tibetans in the Tibetan regions and we are in 
the process now of spending those resources and my office will 
be heavily involved in making sure that these investments are 
directly benefiting the Tibetan people. What is particularly 
interesting--and this is part of our vision too--is that all of 
those investments will be done in consultation with the Tibetan 
people and managed by the Tibetan people so that their benefits 
can accrue directly to them.
    During the course of the past year, I have met twice with 
the Dalai Lama and look forward to seeing him again later this 
month and in July. I am particularly appreciative, if you are 
not aware of it, that the Smithsonian Folk Life Festival, is 
going to feature the Tibetan culture, and His Holiness, the 
Dalai Lama, will be there for these events. This is a wonderful 
way to help preserve the endangered culture.
    In conclusion, I would like to say that the treatment of 
Tibetans by the Chinese Government over the past 50 years has 
been inconsistent with international standards of respect for 
fundamental human rights. The Dalai Lama has shown enormous 
courage in his call for genuine autonomy but within Chinese 
sovereignty. There is considerable common ground between the 
Dalai Lama and the Chinese leaders. I wish they could just talk 
together about it and they would find that there is common 
ground. We are continuing to urge the authorities in Beijing to 
establish this kind of a dialog.
    There are really very significant Chinese interests that 
could be advanced in moving along toward Tibetan autonomy. 
Important is that the Dalai Lama is still active and healthy. 
His prestige is crucial in carrying the opinion of the Diaspora 
and most Tibetans in the autonomous regions. We believe that 
the political will does exist to achieve implementation of a 
negotiated settlement.
    China's widespread abuses have been noted widely by the 
international community, and we think it is in China's interest 
that they be responsive and that they have a more enlightened 
policy toward Tibet. We have to continue on message. We have to 
keep on pressing this, and it is our sincere hope that, in the 
remaining course of this administration, we will be successful 
in getting the Chinese to talk with the Dalai Lama and his 
representatives.
    Let me stop there and answer any questions you have. Thank 
you.
    [The prepared statement of Ms. Taft follows:]

                Prepared Statement of Hon. Julia V. Taft

    Mr. Chairman and members of the Committee, it is a great honor to 
appear before you today to testify on the current situation in Tibet.
    I was appointed 18 months ago to serve as Special Coordinator for 
Tibetan Issues. My policy goals are twofold: first to promote a 
substantive dialogue between the Chinese government and the Dalai Lama 
or his representatives, and second, to help sustain Tibet's unique 
religious, linguistic, and cultural heritage.
    Mr. Chairman as you and your colleagues know, disputes over Tibet's 
relations with the Chinese government have a long, complex history, 
dating back centuries. Rather than focusing this testimony on the past, 
I would like to describe the current circumstances in Tibet, 
highlighting key developments over the past year, and what I've been 
doing since my appointment.

                       CURRENT SITUATION IN TIBET

    As our human rights report on China for 1999 makes clear, tight 
controls on religion and other fundamental freedoms continued and 
intensified during a year in which there were several sensitive 
anniversaries and events. The report documents in detail widespread 
human rights and religious freedom abuses. Besides instances of 
arbitrary arrests, detention without public trial, and torture in 
prison, there was also an intensification of controls over Tibetan 
monasteries and on monks and nuns. Religious activities were severely 
disrupted through the continuation of the government's patriotic 
education campaign that aims to expel supporters of the Dalai Lama from 
monasteries and views the monasteries as a focus of ``anti-China'' 
separatist activity. The U.N. High Commissioner for Refugees (UNHCR) 
reported that 2905 Tibetans left Tibet during the year, and Tibet 
Information Network reported that approximately 1/3 of those left to 
escape campaigns and pursue religious teaching in India. In fact, two 
of Tibet's most prominent religious figures have left Tibet during the 
past 20 months reportedly for these reasons. The 14-year-old Karmapa, 
leader of Kagyu sect, and the third most revered leader in Tibetan 
Buddhism, left Tibet in late December and arrived in India on January 5 
to pursue religious teachings in India. Agya Rinpoche, former abbot of 
Kumbum Monastery, a senior Tibetan religious figure and an official at 
the Deputy Minister level, left China in November 1998. Among reported 
reasons for his departure were increased government pressure on Kumbum 
Monastery including the stationing of 45 government officials, the 
imposition of patriotic re-education, and a heightened role demanded of 
him by the Government in its campaign to legitimize Gyaltsen Norbu, the 
boy recognized by the Chinese leadership as the 11th Panchen Lama.
    Although China has devoted substantial economic resources to Tibet 
over the past 20 years, it remains China's poorest region. Language 
problems severely limit educational opportunities for Tibetan students, 
illiteracy rates are said to be rising sharply, and most non-urban 
children are chronically undernourished.
    Recent reports suggest that privatization of health care, increased 
emphasis on Chinese language curriculum, and continuing Han migration 
into Tibet are all weakening the social and economic position of 
Tibet's indigenous population. Lacking the skills to compete with Han 
laborers, ethnic Tibetans are not participating in the region's 
economic boom. In fact, rapid economic growth, the expanding tourism 
industry, and the introduction of more modern cultural influences also 
have disrupted traditional living patterns and customs, causing 
environmental problems and threatening traditional Tibetan culture.
    Because of the deterioration of the Chinese Government's human 
rights record the U.S. Government introduced a resolution focusing 
international attention on China's human rights record at this year's 
session of the United Nations Commission on Human Rights (UNCHR) in 
Geneva in March. Unfortunately, the Chinese countered with a no-action 
motion which effectively blocked discussion of the resolution and a 
vote. We succeeded, however, in focusing international attention on 
China's human rights practices.

                           OTHER DEVELOPMENTS

    In addition to addressing the human rights situation in China 
through multilateral fora, the President and Secretary Albright have 
continued to urge the Chinese leadership to enter into a substantive 
dialogue with the Dalai Lama or his representatives. President Jiang 
Zemin said at our June 1998 summit in Beijing that the door to dialogue 
and negotiation is open as long as the Dalai Lama publicly affirms that 
Tibet is an inalienable part of China and that Taiwan is a province of 
China. Despite our repeated efforts to foster such dialogue and the 
willingness expressed by the Dalai Lama, the Chinese leadership has not 
yet followed up on Jiang's public remarks. Nevertheless, the 
Administration remains committed to implementing an approach to human 
rights that combines rigorous external focus on abuses while 
simultaneously working to promote positive trends within China. In the 
case of Tibet, President Clinton, Secretary Albright and all senior 
Administration officials have repeatedly urged the Chinese to engage 
with the Dalai Lama to resolve Tibet issues. I am convinced that this 
principled, purposeful engagement is the best means we have to produce 
results over the long-term.
    We have also continued to raise individual cases of concern. Most 
notable is the issue of the welfare and whereabouts of Gendhun Cheokyl 
Nyima the boy recognized by the Dalai Lama as the Panchen Lama and his 
parents, who have been held incommunicado now for 5 years. When we 
received disturbing, unconfirmed reports the boy had died in Gansu 
province and was cremated in secrecy, our Embassy made formal 
representations expressing concern about his whereabouts and welfare. 
Although the reports of his death were unsubstantiated and thought to 
be untrue by the Tibetan exile community, the Administration publicly 
urged the Chinese Government to address continuing concerns of the 
international community about the safety and well-being of the child by 
allowing the boy and his family to receive international visitors, and 
to return home freely. The Chinese government has continued to refuse 
to allow direct confirmation of his well-being.
    In response to an inquiry from the Congress, the Chinese Government 
acknowledged the whereabouts and earlier ill-health of Ngawang 
Choephel, the Tibetan ethnomusicologist and former Middlebury College 
Fulbright Scholar who was incarcerated in 1996 and is now serving an 
18-year sentence on charges of espionage. Throughout the year, we have 
continued to raise Ngawang's case and have urged China to release 
Ngawang on medical grounds as a humanitarian gesture. We are aware of 
strong interest in this case in the Congress. We appreciate the support 
and cooperation we have received in advancing this case.

                WHAT I'VE BEEN DOING OVER THE LAST YEAR?

    Over the past year I have made it a point to learn all that I can 
about Tibetan issues so that I am able to ensure the effective 
presentation of these issues in our U.S.-China bilateral discussions. I 
have maintained close contact with the Dalai Lama's Special Envoy to 
Washington, Lodi Gyari. Throughout the year, I requested meetings with 
the Chinese Ambassador, however, such meetings have not been granted. I 
will persevere this year in my efforts to discuss with the Ambassador 
the Chinese government's views on social, political, and economic 
issues related to Tibet, as well as explore ways we can help get the 
dialogue back on track.
    I've met with scores of people from like-minded countries, 
government officials, people from foundations and academia, experts in 
U.S.-China relations and NGO officials. Each meeting has produced ideas 
on how to improve the situation inside Tibet, as well as substantive 
thoughts about how to restart dialogue. Despite the fact that I am the 
only Special Coordinator for Tibetan Issues world wide, my appointment 
has prompted other nations to identify counterparts to discuss this 
issue. I realize now that there is a wealth of knowledge and talent 
around the world interested in helping to improve the situation in 
Tibet. In fact, I recently visited Brussels where the European 
Parliament held an all-Party Parliamentarian Session on Tibet to 
discuss multilateral efforts and how we can best coordinate future 
strategies.
    In January I visited Dharmasala, India in my capacity as Assistant 
Secretary for Population, Refugees and Migration. The purpose of my 
trip was to evaluate and review the $2 million in assistance programs 
the United States provides for Tibetan refugees.
    After receiving a very warm welcome, I had the opportunity to meet 
with many members of the Central Tibetan Administration to discuss the 
grant. I was overwhelmed by the tremendous sense of good will and 
community, especially among the younger generation despite the fact 
that this generation has never even seen Tibet. I learned on my visit 
that nearly the entire Central Tibetan Administration is made up of 
Fulbright Scholars. These bright, young adults undoubtedly had much 
more lucrative opportunities in the United States, Europe or India, yet 
a remarkable 96% have returned to Tibetan settlements to make their 
talents available to the Central Tibetan Administration. Equally 
impressive is how traditional Tibetan culture is integrated into nearly 
every facet of daily life.
    However, having just been to Nepal in October where I met with new 
arrivals who were traumatized and had endured great hardship while 
crossing the Himalayas, I was anxious to visit the transit center in 
Dharmasala where all new arrivals spend some time before being placed 
in settlements throughout India. During my visit the center was crowded 
with refugees. The new arrivals were quiet, but far more animated than 
the refugees I had seen in Kathmandu just three months earlier. The 
rooms were crowded, but clean and orderly. Many were wearing the new 
shoes and dark pants they received after arriving at the Kathmandu 
reception center. Attached to the transit center was a small, three-
room medical clinic for routine medical care.
    The USG grant makes a very positive impact on the lives of these 
refugees by providing support for the reception centers, preventive 
health care, basic food, clothing, clean water and income-generating 
projects.
    Additionally, I met with the Dalai Lama twice over the past year 
and I look forward to seeing him either later this month or in early 
July when he is here for the Smithsonian Folk Life Festival. On a 
personal note, I would like to express how pleased I am that the 
Smithsonian has decided to highlight Tibetan Culture at this year's 
festival. It's through programs like these that people learn to 
appreciate different cultures and how important it is to preserve 
endangered cultures such as Tibet's.
    During the two meetings I have had with Dalai Lama, he has 
reiterated his concern about the marginalization of the Tibetan people 
living in Tibet and requested that I devote some attention to finding 
ways to improve the lives of those still in Tibet through culturally 
sustainable enterprises. As I began to narrow down options on ways to 
be helpful, Congress appropriated $1 million to support activities 
which preserve cultural traditions and promote sustainable development 
and environmental conservation in Tibet. The responsibility of the 
earmark was assigned to the Bureau of East Asia and Pacific Affairs and 
my office will have an important role in managing the money and 
monitoring the performance of these new programs over the course of the 
next two years.

                               CONCLUSION

    The treatment of Tibetans by the Chinese government over the past 
50 years has been inconsistent with international standards of respect 
for fundamental human rights. The Dalai Lama has shown enormous courage 
in his call for ``genuine autonomy'' within Chinese sovereignty. There 
is considerable common ground between the Dalai Lama and Chinese 
leaders. We urge the authorities in Beijing once again to establish a 
dialogue with the Dalai Lama. There are significant Chinese interests 
that could be advanced in moving forward on Tibetan autonomy. The Dalai 
Lama is still active and healthy; his prestige will be crucial in 
carrying the opinion of the Diaspora and most Tibetans in the 
autonomous regions. We believe the political will exists to achieve the 
successful implementation of a negotiated settlement.
    Widespread knowledge of China's human rights offenses in Tibet has 
brought about pressure on China's leadership to explain its Tibet 
policy to the international community. My impression is that the 
situation in Tibet deeply troubles China's international partners and 
foreign leaders and that this is affecting China's diplomatic 
engagement in Western countries.
    Chinese leaders may find that a more enlightened policy toward 
Tibet would be an important step toward enhancing the respect they have 
earned from the economic transformation of their country. It is my 
sincere hope that parties will resume dialogue that looked so promising 
in 1998. Preservation of Tibet's unique cultural and religious 
traditions depends on it.
    In closing, I would like to thank you for this opportunity to 
testify today. I look forward to working with you another year on this 
extremely important issue.

    Senator Thomas. Very good. Thank you.
    Let me go back to what I mentioned. Let us just say that 
you could cause to happen what you would like to have happen. 
What would that be? How would you transform the situation into 
what? What is it you would like to see accomplished?
    Ms. Taft. Well, I appreciate your asking it of me, but my 
answer--and I do not mean to be oblique--has to be not what I 
believe should be the future of the Tibetans, but what the 
Tibetans believe is there future. And to do that, we have got 
to find a way to consult with them, to have them consult with 
the Chinese authorities so they can design their own future.
    You know there was a very interesting thing that happened 
at the human rights meeting in Geneva. We had a roundtable 
where a number of Tibetan leaders and Chinese exiled leaders 
and Richard Gere were making presentations to a large, large 
NGO audience. We were talking about the human rights dialogs, 
and one of the countries got up and said, well, we are very 
frustrated. Our human rights dialog is not going forward with 
China, and we do not want the Chinese to be upset with us 
because we want this dialog to go forward. A couple of other 
countries said the same thing. One of the Chinese exiled 
leaders said, this is all very encouraging that you want to 
have your human rights dialogs go forward, but the real dialog 
China needs to have is the dialog with the Chinese people. So, 
I would just say that we have got to find ways to get to the 
table the Chinese and the Tibetans.
    To specifically address where it will all lead, it seems to 
me that the Tibetans have been disempowered. They are not 
decisionmakers in their own region. Their education is 
frustrated and inadequate for them. So, we need to encourage 
through foundation support, through whatever development 
assistance can go into the region, to make sure that the young 
people have vocational education and their own linguistic 
training so that they can thrive.
    We have got to help get economic development in the hands 
of the Tibetans. There is money going into Tibet but it is 
going in for Han employees and Han enterprises. It is not going 
to really help the Tibetans. We have got to see if we can 
change that dynamic.
    With regard to the politics, His Holiness has very clearly 
expressed his idea about community decisionmaking and Tibetan 
decisionmaking, and I would like to submit for you his idea of 
how he would see the transition taking effect. I think his 
words are obviously much better than mine.
    The bottom line is that the U.S. Government believes Tibet 
is part of China, and so we do not view any separatist future 
there. But it has to be a future where the people of Tibet are 
able to come up with their own autonomy, their own control of 
their social and cultural and linguistic well-being. That can 
only be done if we get the major parties talking.
    Senator Thomas. Well, I understand. I guess I am a little 
impatient. I am not a diplomat. But it seems like if the main 
issue is dialog, that we at least hope we know where the dialog 
is going. Is this going to be an independent state? You say 
probably not. It is going to be a part of China. Fine. Let us 
identify that. Is it going to be like Hong Kong? Is it going to 
be one country, two systems? As much dialog as you have had 
apparently with Tibetans, it seems to me like there is not a 
very clear notion. We talk about these generalities. We want 
human rights. We want economy. How do you do that? It just 
seems there ought to be a little clearer articulated position 
of where we want to go to cause those things to happen.
    Ms. Taft. Yes, sir, I understand that. There are statements 
that clarify where the Tibetans in exile, led by the Dalai 
Lama, would like those conditions to be. The United States has 
never purported to be the negotiator.
    Senator Thomas. I am not suggesting that we tell them what 
to do, but we ought to able to identify so we know. For 
instance, it seems to me that most of the things that you have 
done, that you listed, are things that are assistance to 
refugees and so on. I understand that and that is fine and that 
is a good thing to do. But that does not necessarily move you 
toward a resolution. All that does is help the people that are 
displaced.
    Ms. Taft. Yes, sir, but from a political standpoint, 
President Clinton and Secretary Albright and every senior 
official that ever talks to any of the Chinese keep on message 
pressing the Chinese to talk with the Tibetans.
    Senator Thomas. So, that is our position to talk.
    Ms. Taft. Well, our position is at least try to talk.
    Senator Thomas. I understand.
    Ms. Taft. I have not even talked with the Chinese. They 
will not even talk with me because they say that this is an 
internal matter within China. The presentations of our 
administration have gone forward to say this is important for 
China to be able to have this dialog.
    If you have other suggestions, we are willing to try to do 
anything, but we cannot force the Chinese to a table that they 
do not want to set up.
    Senator Thomas. I understand. However, you have said in 
here somewhere that Jiang Zemin said if they agreed to be part 
of China, that they would have--do the Tibetans agree to that?
    Ms. Taft. The Dalai Lama has publicly said that.
    Senator Thomas. So, that is generally accepted by the 
Tibetans.
    Ms. Taft. Yes, but it is not believed by the Chinese. Our 
sense is if they would sit down together, that the Chinese 
would be much more understanding of what a Tibetan system would 
look like. You mentioned the two-China system. There is a 
different system for Macau. There is a different system for 
Hong Kong. There can be a different system for Tibet. We do 
have ideas and a whole booklet of different types of autonomy 
arrangements around the would that they could choose from or 
adapt. But we cannot get any agreement from the Chinese to even 
initiate discussions with us or with the Tibetans.
    Senator Thomas. How do you see the human rights? And, of 
course, the religious freedom abuses probably are more unique. 
Do they differ in Tibet from other parts of China?
    Ms. Taft. I think they differ in that there are fewer 
Tibetans and Tibetan Buddhists than there are other religious 
sects within China. The focus of the intimidation is mostly on 
the monasteries and the monks and the nuns that they are not 
allowing photographs of the Dalai Lama. They are penalizing 
people who try to worship according to their traditional 
beliefs. The Chinese have asserted themselves in this 
interesting religious dimension of reincarnation. Chinese 
atheists are determining who are reincarnated Buddhists. That 
is pretty dramatic. And we have documented a number of serious 
infractions and beatings.
    Senator Thomas. Do you think they treat the Buddhists 
differently than the Falun Gong, for example?
    Ms. Taft. Probably not. Both bad.
    Senator Thomas. You mentioned 2,900 Tibetan refugees. How 
many Tibetans are there?
    Ms. Taft. Well, it depends on how broad a geographic swath 
you have, but about 6 million.
    Senator Thomas. Six million?
    Ms. Taft. Yes, sir. There are about 100,000 that are in 
India and India has provided very congenial asylum and 
tolerance for them throughout the years.
    Senator Thomas. So, the Dalai Lama does agree that Tibet is 
an inalienable part of China.
    Ms. Taft. He has agreed it is part of China. He would like 
it to be a self-governing, autonomous region of China.
    Senator Thomas. What are your immediate goals in terms of 
your being the person working with Tibet?
    Ms. Taft. Well, one of them is to try to find really 
reliable focal points in other countries that care about Tibet. 
When I was in Brussels at the inter-parliamentarian meeting, 
all the Europeans were so pleased to know that the United 
States had a Special Coordinator for Tibet, and I had to tell 
them I was really quite lonely because I did not have many 
people to talk to on a reliable basis in Europe. They passed a 
resolution to encourage each of the parliaments to establish a 
focal point, and they are doing that.
    So, one of the hopes that I have is that we can have a 
meeting of focal points and discuss what are the best 
initiatives we can collectively do particularly with our 
European partners to push together with the Chinese on having 
this dialog be coupled with something else, whether it is human 
rights or an economic initiative or whatever. We have got to 
get all of us to say the same thing to the Chinese about the 
importance of a dialog. So, I am hoping that will happen.
    The second thing is we still have several more months in 
this administration, and there are other opportunities for us 
to again press the Chinese on the dialog. Right now the Deputy 
Assistant Secretary in charge of China is meeting with her 
Chinese counterparts again to push this. We hope that there 
will be some breakthrough. When the Dalai Lama is here for his 
July session, we are hoping he will have senior level meetings 
and can share with us again his suggestions on how we can push 
even harder.
    Senator Thomas. When was the Special Coordinator created, 
this position?
    Ms. Taft. It was created in 1997, and Greg Craig, who was 
my predecessor, was designated for the first 10 months, and 
then I have had it for 18 months.
    Senator Thomas. Now, in both cases, you have each had other 
responsibilities.
    Ms. Taft. Yes, sir.
    Senator Thomas. So, how much of your time is dedicated to 
this issue?
    Ms. Taft. Depending on what else is happening in the world, 
I would say I spend 2 hours a day on this issue.
    Senator Thomas. So, it is a relatively small percentage of 
your time.
    Ms. Taft. Well, I am in charge of refugee issues and 
humanitarian issues at the State Department as well. So, I have 
a lot of----
    Senator Thomas. I understand. The point is how much----
    Ms. Taft [continuing]. Other jobs, but I have a full-time 
assistant. I have the assistance of the people within the State 
Department who help us and our Economic Bureau as well as in 
the EAP region. We have in Chungdu--we get very active 
participation and monitoring from the Consul General there. We 
work actively with our embassy in India and in Nepal on these 
issues. I am kind of an orchestra director, but there are lots 
of players out there who are engaged in this. We try to track 
all the talking points, all the visits that are forthcoming. We 
were heavily engaged in the China resolution. In fact, because 
these issues are so closely related to my other portfolio, I do 
not split hairs on it. I hope I feel like I have given it all I 
can.
    Senator Thomas. Would it be fair to say then in the last 3 
years or so, 4 years, probably the most imperative task for 
this has been to promote the dialog, but we have not seen much 
progress. Is that fair?
    Ms. Taft. That is correct. Yes, sir.
    Senator Thomas. All right. Well, a tough job.
    Ms. Taft. Thank you for your attention and help.
    Senator Thomas. Just hold on a second. I think Senator 
Kerry is out here. He may wish to ask you a question. If he 
does not, we will got on to the next panel.
    Ms. Taft. If I can just say one----
    Senator Thomas. Let me say I do not mean that to be 
disparaging, but I think we have to take a look at whether what 
we are doing is making progress. If it is not, then--I guess I 
have gotten this feeling a lot lately about all of government. 
If we keep doing the same thing and we are not progressing, 
then we ought to really take a look at doing something else.
    Ms. Taft. Well, may I tell you, sir, if you have any ideas, 
please help. I mean it. The Chinese will not talk to me, but 
they do talk to our other interlocutors. I think now we have 
passed over these sensitive anniversaries of last year, which 
were really very tough, and the bombing of the embassy, which 
now is behind us. Now with PNTR and the progress on WTO, I 
think the time is right, and I also believe that their change 
in attitude about something that we have pressed on, which is 
the visit of Sonam Dekyi to her son, is because we all stayed 
on message and we all kept pushing it. So, it seems to me just 
your having this hearing is a wonderful signal to the Chinese 
that there is a constituency out there. And we are trying, but 
we cannot force them to come to a table they do not want to 
come to.
    Senator Thomas. No, it is true. On the other hand, it would 
seem, again from an outsider's point of view, that since they 
know and we know that one of your principal tasks in this job 
is to bring on the dialog, then they may resist that, but that 
does not keep our Ambassador to China from talking about it. It 
does not keep our President from talking about it. It does not 
keep other people from doing it even though you may find some 
resistance because they recognize your task.
    Ms. Taft. Oh, but everybody does. I talk with Ambassador 
Preuer all the time. He was just in recently. He carries on an 
effort to do this, but they have got to hear it not just from 
us, but from the French and the Norwegians and the Brits and 
all the rest of them. That is why I want these focal points to 
make sure we are all pushing in the same direction. But your 
help would be very welcomed.
    Senator Thomas. Senator Kerry, nice to see you, sir. We are 
just about through with Ambassador Taft, but wanted you to have 
a chance to make a statement and questions if you would like.
    Senator Kerry. Well, thank you very much, Mr. Chairman. My 
apology to you and to the Secretary for not being able to be 
here throughout. I guess everybody here is familiar with and 
used to the process around here.
    I am pleased you are holding this hearing, Mr. Chairman. It 
has been a long time since this subcommittee has focused on the 
question of the situation in Tibet and the status of talks or 
lack of talks, as the case may be.
    Two years ago this month, the President held a rather 
remarkable public dialog in China with President Jiang Zemin, 
and it was extraordinary for the comments solicited from 
President Jiang Zemin about his recognition of the importance 
of this issue to the American people and, indeed, his 
preparedness to have a discussion with the Dalai Lama, with His 
Holiness. That has not happened, and I think a lot of us have a 
nagging suspicion that other things are more prominent on the 
radar screen. No progress has been made at all really since 
that historic meeting. None. Zero.
    So, convince me, can you please, Madam Secretary, that this 
is really front and center, that this is something that is 
reflective of a legitimate initiative and effort by the 
administration?
    Ms. Taft. You started off by talking about all of the other 
things that are on the plate. We have nuclear weapons 
discussions. We have Taiwan discussions. We have trade 
discussions. We have human rights discussions. We have Tibet 
discussions.
    Senator Thomas. Who has the Tibet discussions?
    Ms. Taft. Well, Secretary Albright, Sandy Berger, President 
Clinton.
    Senator Kerry. Did Sandy Berger have Tibet discussions on 
his most recent trip a few weeks ago?
    Ms. Taft. He did discuss it, yes, sir.
    Senator Kerry. And do you know what the outcome of that 
was?
    Ms. Taft. The Chinese have indicated that it is not time to 
pursue this. They do not believe it is the time to go forward.
    Senator Kerry. Have they been articulate at all about what 
the timing issues are or what might constitute the right time 
to proceed forward?
    Ms. Taft. I wish I could answer that question.
    Senator Kerry. I mean, it cannot be so painful to talk.
    Ms. Taft. Well, last year we were told it was not the right 
time because of all the sensitive anniversaries. Then we were 
told it was not the right time because of the bombing. And then 
it was not the right time because we had lots of other 
discussions of high import from national security and economic 
standpoints.
    I think that all of these other discussions actually 
complement what we are trying to do, and let me say that while 
I am very frustrated--you are looking at a very frustrated 
person here. My primary task of trying to get the dialog going 
is not working. But one of the things we have tried to do is 
include this issue in other issues with other voices. In other 
words, where there are academics meeting with academics, 
working with them to say please raise this issue so that it has 
more resonance there. We have done it with religious visitors. 
We did it with a staff CODEL that raises these questions. The 
military-to-military discussions have not yet talked about 
Tibet, but we are hoping that they will get to it. In other 
words, the Chinese need to hear from the businessmen, the 
academics, the diplomats, the military folks.
    Senator Kerry. Well, speaking of the businessmen for a 
minute, I am voting for permanent normal trade status. I think 
the chairman is too. But this raises the question: Should 
someone perhaps have said, well, we are not going to proceed 
forward on that until you enter a dialog? These are the 
linkages that often people bring up. If you tell me that they 
keep saying it is not the right time, it is not the right time, 
it is not the right time, it certainly builds a compelling case 
for the notion that someone has to help----
    Ms. Taft. Tell them it is the right time.
    Senator Kerry [continuing]. Create the moment, so to speak. 
Now, how do you respond to that?
    Ms. Taft. Well, my sense is that the PNTR debate and 
discussions also with businessmen have been very important for 
the Chinese to realize that there are international standards 
of behavior, international rules, and an international 
community that they have to live up to certain standards for. 
Now, that is sure on the trade side. But this is all very 
important. I think the more familiar they become with the 
international community's rules of engagement and standards of 
behavior, in this case vis-a-vis trade, they will then start 
understanding why we find their attitudes on human rights with 
Tibetans so objectionable. I think this is a process and I am 
not thinking it is going to be solved overnight, but I think it 
is really important.
    They were very interested in being able to identify--and we 
are working with them on identifying--what are the laws that 
the country of China has to modify so that they can come into 
an ability to live up to the trade standards. They are working 
on this, and I think we have got to keep pushing them and say, 
OK, you work on these but you also have to pay attention to the 
human rights. Eventually if we are all pushing in that 
direction, sir, I think we will make some progress.
    Senator Kerry. What do you think the tools are that are 
available to us? If I were just to ask you as sort of an 
academic exercise, what tools are available to the United 
States, if you were going to make a list of those things that 
we can use to leverage behavior legitimately, what do you think 
they are? If we are not going to have the linkage to PNTR, what 
are the others?
    Ms. Taft. Well, I think some of the things that you are 
doing are very important. The Fulbright Scholarship Program is 
very important. I think the support of VOA and Radio Asia, very 
important. Trying to increase STAFFDEL's and CODEL's. I would 
like you to go to Tibet. I think people who go to China ought 
to be asking to go to Tibet and ask the kind of questions and 
look and see whether or not there are so many Han that are 
going in to Tibet or not. It would be very helpful for you to 
do that.
    I think that the pressure and the visibility on the 
discussions with PNTR has certainly raised the awareness of the 
Chinese that human rights is an important issue and they have 
got to be recognizing it. I do not know whether there is any 
linkage between that and the willingness of China now to offer 
a visa for the mother of Ngawang Choephel, but I think there 
probably is a connection there. I think we all have to keep 
saying that there are connections even though they say there 
are not. We need to just keep these on the front burner.
    Now, the fact that the Smithsonian is having the Folk Life 
Festival feature on Tibet is certainly not going to go 
unnoticed by the Chinese. It shows an attachment and an 
importance that we have to----
    Senator Kerry. What about leverage? Those are sort of 
signals.
    Ms. Taft. Yes, sir.
    Senator Kerry. And those are kinds of messages. Is there 
any clout anywhere?
    Ms. Taft. I have struggled with this. I do not think there 
is anything that we can do.
    Senator Kerry. What about a multilateral effort? Is there 
not an international community that supposedly shares these 
values and standards?
    Ms. Taft. Yes, and I am trying to work with them.
    Senator Kerry. What are we doing with them?
    Ms. Taft. Well, we are meeting with our friendly 
parliamentarians. We tried to introduce the China resolution 
without much success.
    Senator Kerry. Do you think the world is enough aware of 
what happened to that?
    Ms. Taft. I think they were aware. I do not think there was 
enough discussion as to why no other country would support us 
on that resolution. We certainly signaled our indication to 
table it very early on. It was this past January. We had 3 
months. Our Assistant Secretary for Human Rights and our 
representative to the Human Rights Commission and myself and 
others worked very hard, and at the end of the day, most of the 
countries said that they did not believe that, for their own 
economic interests, that they should support it.
    Senator Kerry. But really it did come down to the economic 
interests.
    Ms. Taft. A lot of it was economic and also their interest 
in not destabilizing their own human rights dialogs with the 
Chinese authorities.
    Senator Kerry. What is your sense, Madam Secretary, of 
those dialogs? Do you think that they are real?
    Ms. Taft. Well, at least ours is moribund right now. It has 
not happened since January 1999. Most of the European ones are 
just forums for chatting and do not have any teeth. Before you 
came in, we were talking a little bit about this, that it would 
be very helpful for all the people who are sponsoring human 
rights dialogs with China to get together and talk about the 
question: Are they effective? What are we trying to achieve? 
Are we just trying to make ourselves feel good, or are we 
really presenting an opportunity to press these issues forward 
with the Chinese? I think that needs to happen. I think all of 
the human rights sponsors have to get together and sort of 
share their views and maybe even do a common demarche with the 
Chinese and say we all want to sit down with you together and 
have at the table Tibetans and Chinese in exile and other 
people who represent the human rights community in exile.
    Senator Kerry. Well, I appreciate it. Mr. Chairman, thank 
you.
    It is a very vexing and extraordinarily frustrating issue. 
Obviously I know people care about it, but I have increasingly 
come to the opinion there is precious little unilaterally in my 
judgment that a country can do. It is a conclusion I am coming 
to after years of watching this. There is precious little you 
can do directly to exert leverage. On the other hand, you can 
directly leverage through that circuitous route of reaching out 
to the allies. I think it is the multilateral response that 
really needs to be stronger and it is sorely lacking. There 
must be better ways, I think, of trying to do it.
    But the other thing that is also necessary is, I think, the 
administration needs to stay constant in keeping it at a high 
level of concern and visibility, and I think that in a sense is 
above your pay grade. It is really the President and the 
Secretary of State directly. It is very ministerial and very 
directly principal to principal. Absent that, they just slide 
by with these excuses--well, the time is not right--and they 
have a polite conversation with you and the heads nod and they 
go through these perfunctory meetings, but nothing comes out of 
it. So, I think it is a question of how high it is on the 
agenda.
    Ms. Taft. I believe it is quite high on our agenda. I 
believe it is quite low on the Chinese agenda. That is why your 
voices are very important. You all have very strong 
relationships with other Asian leaders as well. You raise this. 
We raise it. I think they will hear that this is not just an 
internal matter. It really is not an internal matter in our 
view, but that is what the Chinese think. It makes my position 
even more difficult because they say, well, how would you like 
China to have a special coordinator for Native American 
affairs? That is how they view the equivalent of me.
    So, you are right. We have to have more voices. We have to 
have high level voices. The administration has tried, and if 
there are some other multilateral levers we can use, I would be 
delighted to come and talk with you and your staff and get some 
ideas on this because we only have a short time left in this 
administration, and I do not want to have to admit that we have 
not----
    Senator Kerry. Fair enough. Just a last question, a very 
short answer. Who is the highest level Chinese official you 
personally have brought this up with?
    Ms. Taft. I have not been granted any audience with any 
Chinese official, and after many written requests to our 
Ambassador, many verbal requests from other senior officials, 
and I have asked for visas to go to China, visas to go to 
Tibet----
    Senator Kerry. So, you have basically been stiffed.
    Ms. Taft. Well, I have but there are a lot of voices----
    Senator Kerry. This is your job.
    Ms. Taft. Yes, sir, I know.
    Senator Kerry. If they are not paying attention to the 
person whose job it is, it seems to me that we are not in the 
ball game.
    Ms. Taft. Well, I hope you do not read into that that it is 
useless having me there.
    Senator Kerry. No, I do not read that into it.
    Ms. Taft. You are right and I am very frustrated by this, 
but I think it is really useful to have an office in the State 
Department where you keep prodding, you keep looking at the 
talking points, you get ideas from people who come in, you keep 
in touch, you ask the embassy to do things. Even though I have 
no face-to-face contact, I assure you there are----
    Senator Kerry. I understand. I am not suggesting it is and 
I think you have done wonderful work on the refugee and other 
issues that are in front of you. I do not suggest that at all, 
but it underscores the predicament we are in and that is why I 
asked the question.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you, sir.
    Thank you, Madam Secretary. Appreciate it.
    Let us go on to our panel two please: Mr. John Ackerly, 
president, International Campaign for Tibet; Dr. Elliot 
Sperling, professor, Department of Central Eurasian Studies, 
Indiana University; Dr. Elizabeth Napper, co-director, Tibetan 
Nuns Project. Thank you, ladies and gentlemen, for being here.
    We will include your total statements in the record. If you 
would like to sort of consolidate them a little, why, try that. 
We are stretching this a little longer than we had thought. So, 
in any event, why do we not start with you, Mr. Ackerly.

 STATEMENT OF JOHN ACKERLY, PRESIDENT, INTERNATIONAL CAMPAIGN 
                   FOR TIBET, WASHINGTON, DC

    Mr. Ackerly. Thank you, Mr. Chairman. Thank you for 
inviting me to testify.
    I also want to thank the committee for your support and 
leadership in addressing the problems in Tibet and specifically 
for your help in initiating and sustaining important programs 
such as the Office of Special Coordinator. I think it is 
important that during the next administration to make sure that 
there is another powerful person in that office. Also the Voice 
of America and Radio Free Asia, Tibetan language programs, 
Fulbright scholarships for Tibetans, and humanitarian 
assistance to refugees are all programs which have been 
extremely beneficial and which would not exist but for your 
efforts.
    I also certainly share your frustration and that of Senator 
Kerry with the lack of progress on negotiations. I want to 
thank you for raising it so strongly with the Secretary. We 
believe that this administration has not been strong enough in 
sending the right signals to Beijing, but in a matter of weeks 
when the Dalai Lama comes, the White House, as well as the 
State Department, as well as this Congress, will have an 
opportunity to make sure that a very loud and clear signal is 
sent. This will be the best, final opportunity of this 
administration for this to happen.
    I do want to say I believe there is a lot more that they 
can do. I think there is a lot more Julia Taft herself can do. 
For example, she could hold her own conference with Tibetan 
experts and leaders on the issue. During the next 
administration, a summit. There will be a summit, I imagine, on 
China and that will be another very important opportunity. So, 
I think these are some of the things that you may be getting to 
in looking for more specifics in what we should be doing and 
looking for.
    I want to take a few minutes to talk about the World Bank. 
This is a very important issue for us now because it is still 
pending. As you know, the bank approved a project last year to 
move 58,000 Chinese and Muslims up onto the Tibetan plateau 
into traditional Tibetan areas. It delayed funding pending an 
inspection panel investigation. The panel finished that 
investigation in April and submitted their report to the bank. 
Yesterday the bank was supposed to issue its response to the 
inspection panel, but China blocked them and delayed their 
response for a week presumably because they were not happy with 
what the bank was going to propose.
    However, this project is still approved and no one yet in 
the bank has had the courage to cancel it. So, we are still 
very concerned that China and some people in the bank may try 
to find a way to continue this project in some format.
    It is our position the World Bank should have no business 
resettling Chinese onto the Tibetan plateau. It is difficult to 
imagine circumstances where the bank would want to fund 
resettlement of any ethnic majority on the lands of 
dispossessed and disenfranchised minorities, particularly when 
resettlement is also a tool of an authoritarian government to 
dilute or quell political unrest by that minority. The bank 
tried to do this in Brazil and Indonesia, and it was a 
resounding failure. Secretary Summers has been quite good on 
this. He said on April 17, ``Cases such as the Western China 
Poverty Reduction Project serve only to erode the credibility 
and endanger public skepticism.''
    I do want to thank Members of the Senate and the House for 
being very supportive of trying to cancel this project. We 
still need your help because, as I mentioned, it is still an 
approved project. Specifically I would like to ask help from 
this committee and other legislatures and institutions to 
demand that the World Bank release the inspection panel report. 
The report is confidential still, but we believe that it is 
vital for the stakeholders to have a right to know what is in 
that report before the bank decides on their fate, not 
afterwards. When we see this report, I think we will see a 
detailed story of mismanagement, duplicity, and broken 
promises.
    Transparency should mean that information decisionmakers 
are using to affect people's lives is shared with those people, 
not deliberately and intentionally kept from them. During the 
weeks leading up to the decision about whether 58,000 people 
will move onto Tibetan lands, the bank is keeping those people 
and the Tibetans in the dark.
    One of the main reasons we need to get this report is to 
share it with the Voice of America and Radio Free Asia, who are 
both here covering this today, so that they can broadcast it 
into the region to let affected people know what is in this 
report and how the bank is going to use it.
    This project has also brought to light much more far-
reaching problems with bank-funded resettlement projects in 
China, and one outcome should be more aggressive scrutiny of 
these projects.
    Another group, Human Rights in China, has initiated a 
groundbreaking study which undermines the myth that the bank 
has also been promoting, that China should serve as a role 
model for countries involved in resettling populations. I would 
urge this committee to look into these problems in the future.
    In the area of human rights in Tibet, the conditions remain 
extremely grim. I will not go into too much detail. You have 
heard from Ms. Taft and you will hear more from Dr. Sperling 
and Betsy Napper. Of course, we remain extremely concerned with 
the Panchen Lama, who now is serving his fifth year under 
detention. He is only 11 years old.
    Ngawang Choephel, who is familiar to many of you primarily 
because he has been championed by Senator Leahy and Senator 
Jeffords of Vermont and by this committee which passed a 
resolution calling for his release. As Julia Taft mentioned, 
there is some movement. China has agreed to give his mother a 
visa to come and we hope that China, working with the U.S. 
Government, will facilitate that trip smoothly. She is very 
elderly. She cannot make this trip alone. She needs help and we 
want to ensure that she has a good meeting with her son. Of 
course, we want to see him free.
    I also want to touch on the issue of the United Nations 
Human Rights Commission and thank this committee for leadership 
in urging the U.S. administration to sponsor resolutions 
against China in the U.N. Human Rights Commission in Geneva. 
Now, even though these resolutions have not passed, I want to 
say how important I think they are and how important I think it 
is for the United States to continue sponsoring them. They give 
the Chinese and Tibetans, whose rights have been abused, a 
voice in the international community where they otherwise would 
have none. They force the Chinese Government to defend itself 
in front of the international community and they serve as a 
strong reminder that these grave and systematic abuses 
occurring there will not be overlooked and the victims not 
forgotten.
    Now, this year, the United States sponsored the resolution, 
and as Ms. Taft said, they did so quite early. And we applaud 
the administration for this initiative. However, the United 
States needs to put its weight behind the resolutions. We feel 
this year the White House did not do that. They need to do so 
to avoid any appearance that these resolutions are being used 
to appease domestic constituencies, including to appease 
yourself and members of this committee.
    I think it is also important for the administration and 
members of this committee to take the extra step and work more 
closely with your colleagues in Europe and elsewhere. One 
reason the resolution did not pass this year is because the 
European Union would not cosponsor it, which points to the need 
for greater consensus building prior to introducing the 
resolution.
    I have traveled to Tibet six times in the last 12 years to 
monitor conditions. It is clear Tibet is under occupation now. 
This does not mean there are tanks or troops in the streets 
every day, although this is not uncommon, but the military 
presence in Tibet is staggering if you take time to look around 
the outskirts of Lhasa, where compound after compound are 
military facilities. Military presence serves both to 
intimidate the local Tibetan population and to make the Chinese 
settler population feel more secure.
    Now, in a few weeks, the Dalai Lama, as I mentioned, will 
be here. I hope you will have an opportunity to have a dialog 
with him.
    I want to say in response to your earlier question about 
what specific vision we have for the future by mentioning that 
there is a very specific transition plan which has been put 
forward by the Dalai Lama to facilitate a transition between 
the current situation and a democratic government. He lays 
forth a plan which relies on Tibetans who are living in Tibet 
and have remained in Tibet, and it dissolves the Tibetan 
Government in exile. It is not a plan to transplant a 
government in exile back in Tibet, but it is a plan to rely on 
Tibetans who have remained there. Many patriotic Tibetans, 
although they are serving in the Chinese puppet regime there, 
are very able and very patriotic, and the Dalai Lama is looking 
toward them to constitute a new government.
    In closing, I would urge the committee to be vigilant in 
efforts to support those Tibetans and Chinese who are demanding 
greater respect for human rights and keep the spotlight on 
people, on both the tortured and the torturers.
    Last, your vigilance is also badly needed to help keep the 
pressure on the World Bank which is still capable of making 
colossal mistakes by undermining the legitimate rights of 
persecuted minority peoples.
    One additional point. I do want to mention that there is a 
huge project which is about to be undertaken in Tibet, probably 
the largest construction project in the history of Tibet, and 
that is the first large-scale gas pipeline which is planned to 
be built across the northern plateau. This will take Tibet's 
resources to China with virtually no benefits accruing to the 
Tibetans themselves. The construction is being done by 
PetroChina, but they have a very large foreign investor, and 
that is BP Amoco. I want to assure this committee that the 
International Campaign for Tibet is very supportive of 
development in Tibet. Development is badly needed. As was 
mentioned earlier, Tibet is the poorest part of China, but what 
we are seeing is not development to benefit primarily Tibetans, 
but development that benefits the Chinese settler population 
and which takes resources out of Tibet to China.
    Thank you very much.
    [The prepared statement of Mr. Ackerly follows:]

                   Prepared Statement of John Ackerly

    Mr. Chairman, thank you for inviting me to testify. Most of all, I 
want to thank this Committee for your support and leadership in 
addressing problems in Tibet. As a result, the Congress and the 
American people have gained a better understanding of the impact of 
China's occupation of Tibet and the Dalai Lama's efforts to halt the 
persecution of his people and find a peaceful resolution to the issue.
    More specifically, you have helped to initiate and sustain 
important programs for Tibetans which, I am happy to report, are having 
a very positive, direct and tangible impact on the lives of Tibetans. 
These include:

    <bullet> The Office of the Special Coordinator for Tibetan Issues 
at the Department of State,

    <bullet> The Voice of America and Radio Free Asia Tibetan language 
programs,

    <bullet> Fulbright scholarships for Tibetans, and

    <bullet> Humanitarian assistance to Tibetan refugees.

    The most immediate issue for us today at the International Campaign 
for Tibet is the World Bank's proposal to resettle 58,000 Chinese and 
Muslim farmers onto the Tibetan plateau. The Bank approved the project 
on June 24, 1999, but delayed funding for a review by the independent 
Inspection Panel, which was completed and submitted on April 28, 2000. 
Just yesterday, Bank management was supposed to issue its response to 
the Inspection Panel report to the Board of Executive Directors. China 
requested, and was granted, a week delay before the Bank issued its 
recommendations as to whether this project should proceed or not.
    It is our position that the World Bank should not fund the 
resettlement of Chinese into Tibetan areas under any circumstances. It 
is difficult for me to imagine circumstances where the Bank would ever 
want to fund resettlement of ethnic majorities onto the lands of 
dispossessed and disenfranchised ethnic minorities, particulary when 
resettlement is also a tool of an authoritarian government to dilute or 
quell political unrest by a minority population. When the Bank tried to 
do this in Brazil and Indonesia, it was a resounding social, economic 
and political failure. The World Bank has no business funding such 
schemes in the tropics, the Himalayas or anywhere else. Moreover, as 
Secretary Summers said on April 17 of this year, ``cases such as . . . 
the Western China Poverty Reduction Project, serve only to erode 
credibility and engender public skepticism. And they shortchange 
development effectiveness.''
    The United States has been on the right side of the Tibet 
resettlement project, as has Germany and many other countries also have 
serious problems with this project. I know that foremost among leaders 
in this government opposed to the project are Members of the Senate and 
the House and I want to express my deep appreciation for all of your 
efforts.
    We still very much need your help because this project is still 
formally approved by the Bank. Specifically, I urge this Committee, and 
other legislatures and institutions, to demand that the World Bank 
release the Inspection Panel report because the stakeholders have a 
right to know what is in that report before the Bank decides on their 
fate, not after.
    While we understand that the Inspection Panel report is harshly 
critical of the Bank's handling of this project, stakeholders derserve 
the report regardless of the nature of its content, in a timely manner. 
When we do see this report, I think we will see a detailed story of 
mismanagement, duplicity and broken promises.
    The alleged purpose of the Bank's strategy of delaying any funding 
was to provide a more full and factual discussion of the contested 
issues. President Wolfesohn himself said in the press release 
announcing the decision that ``the fact that this component of the 
project will not start, nor will any monies be drawn for it until the 
results are known, should allow critics and supporters alike the space 
and time for full and open consideration of all issues.'' The 
government of China added: ``we are in favor of transparency. 
Transparency brings to light facts and scorches rumors.''
    But it turns out that the Bank and China define the word 
transparancy differently from you and I. Transparency should mean that 
information decisionmakers are using to affect people's lives is shared 
with those people, not deliberately and intentionally kept from them. 
During these weeks leading up to the decision about whether 58,000 
people are moved onto Tibetan lands, the Bank is keeping those people 
and the Tibetans in the dark. One of the main reasons we need the 
report is to get it to VOA and RFA to be broadcast in Tibetan, Chinese 
and Uyghur languages so that people in the affected areas can know what 
is in the Inspection Panel report before the Bank takes final action on 
that report.
    This project has brought to light much more far-reaching problems 
with Bank funded resettlement projects in China and one outcome of this 
should be more aggressive scrutiny of other projects. I am very happy 
that one group, Human Rights in China, has initiated this and done a 
ground-breaking study which undermines the myth that the Bank has been 
promoting that China should serve as a role model for countries 
involved in resettlement. The report concludes that ``the World Bank 
effectively waives its own guidelines in its work on resettlement in 
China, while ignoring evidence contradicting the favored image of China 
as resettlement paragon.'' I would urge this Committee to look further 
into these problems in the future and to take appropriate action.
    In the area of human rights, conditions in Tibet remain extremely 
grim. One of the most blatant examples is the detention of a 11-year-
old boy who has been kept incommunicado for 5 years now--since he was 6 
years old. He is being kept in detention because he is widely revered 
as a future religious leader of Tibet, having been recognized by the 
Dalai Lama in the traditional manner as the next Panchen Lama. Also of 
particularly concern is Ngawang Choephel, a young man familiar to many 
Senators because his case has been championed by Senator Leahy and 
Senator Jeffords of Vermont delegation and the Committee on Foreign 
Relations which passed a resolution calling for his release. Ngawang 
was on a Fulbright scholarship in ethnomusicology at Middlebury College 
in Vermont and returned to Tibet to film traditional song and dance. He 
is now serving the fifth year of an 18 year sentence in Tibet and has 
been having serious health problems.
    Systematic human rights abuses are also pervasive in monasteries 
and nunneries where the government places strict limits and controls 
over many activities, and outlaws others altogether. These controls 
drive some aspects of Buddhism underground, and they deepen Tibetan 
animosity towards their Chinese overseers. This phenomenon is described 
in more detail by Betsy Napper in her testimony today about nuns, and 
in an excellent new book, ``Tibet Since 1950: Silence, Prison, or 
Exile'' by Human Rights Watch and Aperture. While this is a stunning 
book of photograghs, the text illustrates the extent of China's 
repression and the ongoing violation of basic human rights in Tibet, 
through arbitrary arrest, torture, unfair trials, the secular takeover 
of religion, and the absence of freedom of association, expression, and 
assembly.
    I want to thank this Committee for its leadership in urging the 
U.S. Administration to sponsor resolutions against China at the United 
Nations Human Rights Commission in Geneva. And, I want to urge the 
Committee to continue their support of these resolutions on China as 
long as human rights conditions in China and Tibet do not improve. As 
you well know, the resolution did not pass this year, and it has not 
passed in previous years. However they still serve exrtremely important 
functions and are very beneficial. They give Chinese and Tibetans whose 
rights have been horribly abused a voice in the international community 
where they otherwise would have none. They force the Chinese government 
to defend itself in front of the international community. And, they 
serve as a strong international reminder that these grave and 
systematic abuses will not be overlooked and the victims not forgotten.
    This year the U.S. sponsored the resolution and we applaud the 
Administration for this initiative. However, the U.S. needs to put its 
weight behind the resolutions to avoid any appearance that it is using 
the resolutions to appease domestic constituencies. It could also be 
important for this Committee to take the extra step and work even more 
closely with your celleagues in Europe and elsewhere. One reason the 
U.S. resolution did not pass is because the European Union would not 
co-sponsor it, which points to the need for greater consensus building 
prior to introducing a resolution.
    Scrutiny of rights abuses has also been an important part of the 
annual review of Normal Trade Relations with China. The International 
Campaign for Tibet supports the annual review of NTR as long as China 
remains a totalitarian state. Maintaining the status quo does not 
affect tariff rates and is not a barrier to China joining the World 
Trade Organization. There was some confusion about the Dalai Lama's 
position on these matters but he has a clear record of supporting 
China's inclusion in multilateral rules-based organizations such as the 
WTO, but the Dalai Lama has not taken a position on legislative issues 
such as PNTR.
    I have traveled to Tibet six times in the last 12 years to monitor 
conditions there. It is clear to most politically-savy visitors that 
Tibet is under occupation by its neighbor, China. This does not mean 
there are tanks and troops in the streets every day, although this is 
not uncommon. But the military presence in Tibet is staggering if you 
take time to look around the outskirts of Lhasa where compound after 
compound are military facilities and infrastructure dominating the 
landscape. This presence serves to both intimidate the local Tibetan 
population and make the Chinese settler population feel secure.
    Today there are not as many street demonstrations by Tibetans 
demanding independence. This has been achieved by intimidation 
campaigns, surveilance systems, undercover police and brutal reprisals 
for those who confront the system. In these respects, Tibet is a far 
more repressive place today than nearly all parts of China, with the 
possible exception of areas in Xinjiang.
    In a few weeks the Dalai Lama will be in Washington and I hope that 
you will have an opportunity to have a dialogue with him and hear his 
proposals for improving conditions in Tibet and initiating negotiations 
with China. I also hope that you can do the same with representatives 
of the Chinese government. Because of our enormous trade relationship 
and other ties with China, we have an even greater responsibility to 
ensure that we do not further entrench the occupation of Tibet, but 
rather help to alleviate it.
    I believe that we will soon look back at the brutal occupation of 
Tibet just as we look back at apartheid in South Africa and Communism 
in Eastern Europe. Those systems became cultures of arrogance, fear of 
change and intolerance. Cultures like that cannot last forever. This 
country should have the integrity to admit that some of the effects of 
our policies serve to prop up and enrich this culture which is embedded 
in the Communist leadership, while at the same time, other effects 
serve to undermine it. Sometimes it is difficult to untangle those 
effects, particularly the effects of our trade relationship, which I 
believe are contradictory.
    In closing, I would urge this Committee to be vigilant in efforts 
to support those who are demanding greater respect for human rights and 
to keep the spotlight on people--on the tortured and the torturers. 
Lastly, your vigilance is also badly needed to keep the pressure on the 
World Bank, which is still capable of making colossal mistakes by 
undermining the legitimate rights of persecuted minority peoples.
    Thank you, Mr. Chairman.

    Senator Thomas. Thank you.
    Dr. Sperling.

  STATEMENT OF DR. ELLIOT SPERLING, PROFESSOR, DEPARTMENT OF 
 CENTRAL EURASIAN STUDIES, INDIANA UNIVERSITY, BLOOMINGTON, IN

    Dr. Sperling. Thank you, Mr. Chairman. I am grateful to you 
for giving me this opportunity to appear before you. I am 
essentially an academic working as a specialist in Tibetan 
studies. I am in the Department of Central Eurasian Studies at 
Indiana University where I teach. I have also been for some 
time a consultant to Human Rights Watch. It is in that 
capacity, as a consultant to Human Rights Watch, that I address 
the committee this morning.
    Gross violations of human rights in Tibet remain a 
continuing fixture of the situation there in spite of the 
efforts of various concerned governments and NGO's--and by the 
way, among those governments is the United States Government--
to focus attention on the issue. It is, thus, crucial that 
measures for putting effective pressure on China to adhere to 
accepted international human rights norms be a key component of 
U.S. policy toward China and, where appropriate, be built into 
legislation governing U.S. relations with China.
    Human Rights Watch has a number of concerns that cover 
ongoing human rights violations in Tibet. One of our concerns 
is the continued implementation of Chinese policies aimed at 
subordinating religious practices and sentiments to serve the 
political needs of the state that impinge upon the freedom of 
many Tibetans to peacefully practice or even express certain 
vital aspects of their religious beliefs. These policies are 
implemented through the use of coercion, violent repression, 
and imprisonment.
    Particularly prominent in this regard has been the campaign 
of patriotic education and an increasingly heavy-handed turn 
toward putting certain monasteries and temples under secular 
management. This is closely tied to the well-known case of 
Gendhun Choekyi Nyima, the child who was recognized as the 
Panchen Lama by the Dalai Lama. This case has been alluded to 
already this morning. I will not go into it, but it is a very 
major concern of Human Rights Watch.
    In addition to that, we are also concerned about the 
continued abuse of prisoners in Tibet and the use of torture 
against them. Torture, in fact, we believe has become 
entrenched in Tibet as part of the price for political 
activism.
    As I have said, the case of the Panchen Lama has been 
brought up. There is no need to go into it in detail, but I 
would like to point out that he and his family continue to be 
kept in effective isolation from the outside world, and human 
rights monitors have not been able to independently verify 
their condition. The list of those who have tried to visit him 
in the 5 years since he was spirited away, includes Mary 
Robinson, the U.N. High Commissioner for Human Rights; Harold 
Koh, the U.S. Assistant Secretary of State for Democracy, Human 
Rights and Labor; and just this past month, Raymond Chan, the 
Canadian Secretary of State for Asia and the Pacific. In all 
cases, the requests were rebuffed; China continues to state 
simply that the child is in good health but will not allow any 
independent verification of that statement.
    In addition, we have also noted that the state has assumed 
a visible presence in certifying certain incarnations and in 
harshly suppressing dissenting voices in the matter.
    Most recently, of course, we have seen the management of 
the recognition of Reting Rinpoche, another important Lama 
within the Dalai Lama's sect. By all appearances, this is part 
of a continuing effort to control such searches in order to 
ultimately stage manage the discovery and enthronement of the 
next Dalai Lama.
    Human Rights Watch is concerned about the gross 
infringement on the freedom of conscience that this 
constitutes; all the more so because China has arrested people 
who have peacefully opposed this process. In connection with 
the question of the recognition of the Panchen Lama, there has 
been, of course, a campaign of patriotic education which has 
inflicted a harsh regimen of political tests in order to root 
out any allegiance to the Dalai Lama in Tibetan monasteries. In 
places this has resulted in the expulsion of monks and nuns 
from their cloisters and the imprisonment and torture of some 
who refuse to accept state control over what they perceive as 
vital aspects of their religious lives and beliefs.
    There has not been a uniform application of this campaign, 
and in some places it appears to be winding down. But it is 
speculated--and there are good grounds for speculating--that 
this is because the authorities perceive that it has achieved 
success in certain areas, success that is in subordinating the 
Tibetan clergy to the political control of the state. But the 
effects of this campaign remain. Clergy have been required to 
demonstrate their rejection of the Dalai Lama and of the child 
recognized by him as the Panchen Lama, Gendhun Choekyi Nyima, 
as well as their acceptance of Tibet's status as an inalienable 
part of China. There have been sharp clashes between monks and 
the authorities over this campaign with resulting expulsions 
and arrests.
    Recent and unusually harsh Chinese denunciations of the 
Dalai Lama and his followers may be the prelude to a renewed 
and intensified campaign of attacks on him. We do not know.
    In addition, Human Rights Watch is also concerned about the 
fact that arrests and imprisonment in Tibet are frequently 
carried out as a result of peaceful dissident activity, that 
is, in violation of accepted human rights norms. There are 
serious abuses following detention. Human Rights Watch is 
particularly concerned about the fact that incidents of severe 
beatings at the time of arrest and torture during incarceration 
have been reported with sufficient frequency and from a number 
of credible sources as to put the issue beyond doubt. In a 
number of instances, we have political prisoners in Tibet who 
are reported as having died in custody and then in many 
instances the official report is that they committed suicide.
    When there have been protests--and there have been several 
instances that we know of--these protests have been followed 
by, in many cases, beatings. There have been cases of death 
following these protests and extension of sentences for the 
peaceful, nonviolent expression of dissident opinion. There are 
a number of incidents of this which we have come across. Just 
last week, it was reported that nine Tibetans in Kandze, an 
important town in the eastern reaches of the Tibetan plateau, 
had their 5-year sentences, which were meted out for 
participation in a peaceful protest last October, doubled to 10 
years.
    We note too that several cases have been raised by the 
United Nations Working Group on Arbitrary Detention concerning 
the imprisonment of a number of Tibetans. China has refused to 
explain or justify to the working group its actions in these 
cases. So, in this regard too, we must express our concern at 
the detention late last month of 50 students who had left Tibet 
to obtain educations in India and who were arrested, upon 
returning to Tibet via Nepal. It is important that steps be 
taken to see that the Chinese Government respects their rights 
and, if there are no legitimate grounds for detention, that it 
releases them immediately.
    I am going to be brief here. Let me express to you what the 
recommendations of Human Rights Watch are with regard to the 
situation.
    First of all, time and again since 1989, the U.S. 
Government has voiced its intention to hold China to account 
for its abysmal failings in safeguarding some of the most basic 
human rights of its citizens. The President and other senior 
administration officials have raised the issue of human rights 
violations in Tibet with President Jiang Zemin and other senior 
Chinese officials during summit meetings and other official 
gatherings. This has been useful.
    In fact, if I may depart from my statement to say something 
on a personal note, for many years, prior to the President's 
visit in 1998, we were often told that one cannot mention human 
rights in public with Chinese officials because it involves the 
loss of face. One does not do that publicly. One has to discuss 
this very quietly in the background as a background topic 
otherwise there can be no progress.
    One of the most gratifying things about that visit in 1998 
is that the President did raise the issue of human rights 
publicly, very publicly, and since that time, I would say 
happily, people have stopped talking about this rather arcane, 
orientalist notion that somehow you cannot discuss these things 
in public with the Chinese Government. You can talk about them 
in public. They ought to be talked about in public.
    But the other part of it, of course, is that in spite of 
all of the efforts at dialog, as Ambassador Taft has noted, 
there has not been meaningful positive change. In fact, human 
rights conditions in China have noticeably deteriorated in the 
past year or more, something attested to in the State 
Department's annual reports. But China is clearly sensitive to 
its international image and standing. This is why it has 
vigorously resisted any debate on its human rights record at 
the annual meeting of the U.N. Commission on Human Rights in 
Geneva.
    Human Rights Watch recommends that if Congress chooses to 
end the annual trade review and grant China PNTR, the review 
process must be replaced by a credible mechanism to keep the 
spotlight on China's human rights record. We support the 
formation of a standing bipartisan human rights commission, as 
proposed by the House of Representatives in the bill it passed 
last month granting PNTR. We urge the Senate to join in 
enacting legislation to create such a commission with both 
congressional and executive branch members and a permanent 
staff to monitor human rights conditions in China and Tibet, as 
well as the state of religious freedom and worker rights, and 
to issue an annual report.
    The legislation establishing the commission should call for 
some of its staff to be based in Beijing and Lhasa. I cannot 
say this with any greater emphasis. You have already heard from 
Ambassador Taft about the difficulties that she has meeting 
with Chinese counterparts at any level. I would say that the 
legislation calling for the formation of this commission should 
incorporate language that would mandate the stationing of 
personnel in Beijing and Lhasa. This should be done in order to 
conduct effective monitoring on the ground.
    In addition, it is crucial that the annual report by the 
commission with findings and recommendations for U.S. policy 
actions should be debated and voted upon by a certain date each 
year after it is delivered to the House and the Senate. This 
will help ensure that human rights abuses in Tibet and China 
remain a key issue on the U.S.-China agenda.
    We would urge the President in his contacts with Jiang 
Zemin, including the expected summit meeting this fall during 
the APEC conference in Brunei, to speak out both publicly and 
privately urging China to fully comply not only with its 
commitments to respect global trading rules, but also with its 
international human rights obligations.
    Specifically with regard to Tibet, Human Rights Watch urges 
that there be an end to the re-education campaigns in Tibetan 
nunneries and monasteries; the unconditional release of all 
Tibetan political prisoners. We recommend that the United 
Nations Committee on the Rights of the Child or another 
international body be granted immediate access to the Panchen 
Lama, and we ask that United Nations, foreign journalists, 
diplomats, and independent human rights monitors be given 
unhindered regular access to Tibet. This would be a positive, 
constructive confidence-building measure.
    Thank you.
    [The prepared statement of Dr. Sperling follows:]

               Prepared Statement of Dr. Elliot Sperling


                    HUMAN RIGHTS VIOLATIONS IN TIBET

    I am grateful to the Subcommittee on East Asian and Pacific Affairs 
for affording me this opportunity to appear before you. In addition to 
my academic work as a specialist in Tibetan Studies, I have also served 
for some time as a consultant to Human Rights Watch. Most recently, I 
collaborated with Human Rights Watch on a new book, ``Tibet Since 1950: 
Silence, Prison, or Exile'' (published with Aperture Foundation) 
graphically detailing the reality of exile from Tibet today and the 
role that human rights violations play in forcing many Tibetans to 
leave their homeland. It is as a representative of Human Rights Watch 
that I address this Subcommittee.
    I am here today to speak to Human Rights Watch's concerns about 
human rights conditions in Tibet. Tibet has been, for more than a 
decade, a place where some of the most visible and egregious human 
rights violations committed by the Chinese state have occurred. It is 
well known that Tibetan nationalism forms the background to this 
situation. Human Rights Watch does not endorse any particular political 
arrangement to resolve the issue of Tibet, but we do advocate that the 
right of all Tibetans to peacefully articulate and express themselves 
on political questions must be respected under existing and future 
political arrangements, whatever they may be.
    Since 1987, Human Rights Watch has monitored and reported 
extensively on abuses that have transpired in Tibet. In general, we are 
pleased to note, greater attention is now being paid by the United 
States government to the situation in Tibet; for example, human rights 
violations there are now given significant exposure in the State 
Department's annual review of international human rights conditions.
    Unfortunately, however, gross violations of human rights remain a 
continuing fixture of the situation in Tibet, in spite of the efforts 
of various concerned governments--including the U.S.--and NGOs to focus 
attention on the problem. It is crucial, therefore, that measures for 
putting effective pressure on China to adhere to recognized 
international human rights norms be included as a key component of U.S. 
policy towards China and be built into legislation governing U.S. 
relations with China.
    In my testimony I will briefly describe several areas of continuing 
human rights violations in Tibet that are of particular concern to 
Human Rights Watch.
    One of our concerns is continuing violations of religious freedom 
and the implementation by the Chinese government of policies aimed at 
subordinating religious practices and sentiments to serve the political 
needs of the state. This is not just a question of propaganda and 
persuasion. Rather, these policies impinge upon the freedom of many 
Tibetans to peacefully put into practice or even express certain key 
aspects of their religious beliefs; and they are implemented through 
the use of coercion, violent repression, and imprisonment. Particularly 
prominent in this regard has been the ongoing campaign of ``patriotic 
education,'' aimed at undermining and eliminating the Dalai Lama's 
influence in Tibet. But there has also been an increasingly heavy-
handed turn by the Chinese authorities towards putting certain 
monasteries and temples under secular, government-backed management in 
order to implement greater government control of Tibetan religion.
    Such policies are closely tied to the well-known case of Gedhun 
Choekyi Nyima, the child whom the Dalai Lama formally recognized as the 
incarnation of the Panchen Lama. This child has been subjected to 
virtual house arrest for the last five years simply because most 
Tibetans have accepted him as the incarnation of the Panchen Lama and 
rejected the child whom the Chinese government named as Panchen Lama. 
Neither he nor his family have freedom of movement.
    I will also discuss disturbing evidence that torture of prisoners 
in Tibet continues, in a number of cases resulting in death in custody. 
Torture has become entrenched in Tibet as part of the price that 
political activists must pay.
    Finally, I would like to draw upon our new book ``Tibet Since 1950: 
Silence, Prison or Exile'' for a case study which illustrates what the 
effects of human rights abuses can be in one individual's life.

                     MAKING RELIGION SERVE POLITICS

    The issues of the Panchen Lama and ``patriotic education'' are 
closely bound up with each other, since it was the Dalai Lama's 
announcement of the recognition of the incarnation of the 11th Panchen 
Lama that precipitated the campaign of ``patriotic education.'' When 
the Dalai Lama formally recognized the Panchen Lama in May 1995, the 
Chinese authorities reacted by virulently denouncing him and by taking 
harsh measures against the child whom he had recognized. The boy and 
his family have been kept in effective isolation from the outside 
world, and government representatives and human rights monitors have 
not been allowed independently to verify their conditions, in spite of 
many attempts to do so. Those who have tried to visit him in the five 
years since he was spirited away include Mary Robinson, the U.N. High 
Commissioner for Human Rights; Harold Koh, the U.S. Assistant Secretary 
of State for Democracy, Human Rights and Labor; and, most recently, 
Raymond Chan, the Canadian Secretary of State for Asia and the Pacific, 
who tried to see the child earlier this month. In all cases the 
requests were rebuffed; China simply states that the child is in good 
health but will allow no independent verification of that statement. In 
December 1995, China enthroned its own choice as Panchen Lama.
    The Panchen Lama is generally considered to be just below the Dalai 
Lama in stature within their particular sect of Tibetan Buddhism and as 
such has great prestige within Tibet. China's actions are designed to 
exert unquestioned state control over religion, to the point, in this 
case, of dictating whom Tibetans may revere as a religious hierarch. In 
other instances the state has assumed a visible presence in certifying 
certain incarnations and in harshly suppressing those who dissent. In 
the case of the Karmapa Lama, the head of the Karma Kagyupa sect of 
Tibetan Buddhism, the restrictions on his movement made it impossible 
for him to receive proper teachings from his traditional mentor; as a 
result he had no choice but to flee Tibet. He arrived in India at the 
beginning of this year.
    More recently, the Chinese government alone managed the search for 
another important incarnation within the Dalai Lama's sect, Reting 
Rinpoche. By all appearances, this is part of a continuing effort to 
control such searches in order ultimately to stage manage the discovery 
and enthronement of the next Dalai Lama.
    Human Rights Watch is concerned about the gross infringement of the 
right to freedom of conscience that this constitutes, all the more so 
because Chinese authorities have arrested people who have peacefully 
opposed this process. They include, most notably, Chadrel Rinpoche, a 
high-ranking lama from the Panchen Lama's monastery of Tashilhunpo: he 
is imprisoned along with several other Tibetans accused of working with 
the Dalai Lama from inside Tibet to identify the incarnation of the 
Panchen Lama. The issue here is not simply a question of polemics and 
intellectual disagreements, but of methods and tactics involving clear 
violations of human rights.
    As I have noted, the struggle over the recognition of the Panchen 
Lama led to a campaign of ``patriotic education'' that has imposed a 
harsh regimen of political tests on residents of Tibetan monasteries in 
order to root out any allegiance to the Dalai Lama. Again, this has not 
been simply a peaceful polemical issue: the campaign resulted in the 
expulsion of monks and nuns from their cloisters and the imprisonment 
and torture of some for refusing to accept state control of what they 
perceive as vital aspects of their religious lives and beliefs.
    The application of this campaign has not been uniform. Over the 
last year, it appears to have been winding down, but this may be 
because it is thought to have achieved sufficient success in 
subordinating Tibet's clergy to the political control of the state. On 
the other hand, recent and unusually harsh Chinese denunciations of the 
Dalai Lama and his followers may be a prelude to a renewed campaign. In 
any event, the campaign's effects remain, with many monks and nuns 
still barred from their cloisters and other, vocal dissidents still in 
prison.
    The campaign, widely implemented, has required clergy to 
demonstrate their rejection of the Dalai Lama and the child he has 
recognized as the Panchen Lama, as well as their acceptance of Tibet's 
status as an inalienable part of China. In the region that Tibetans 
know as Amdo, covering parts of the Chinese provinces of Qinghai and 
Sichuan, monks at Kirti and Rebgong monasteries have clashed sharply 
with the authorities, with resultant expulsions and arrests. This 
enforced subordination of religion to politics has brought about 
noticeable changes in the running of monasteries and nunneries: in some 
cases, the secular authorities have taken over their management; in 
others, monastic leaders have simply resigned themselves to 
accommodating the political directions of the state. In short, it is 
absolutely clear that unfettered religious practice does not prevail in 
Tibet's monasteries today.

                      TORTURE AND ABUSE IN PRISON

    In addition to the fact that arrest and imprisonment in Tibet are 
frequently carried out as a result of peaceful dissident activity--in 
violation of international human rights law--there are serious abuses 
following detention. Incidents of severe beatings at the time of 
arrest, torture during incarceration, and severe beatings of inmates 
already sentenced have been reported with sufficient frequency and from 
a number of credible sources as to put the issue beyond doubt and, 
moreover, to demonstrate that these abuses are not isolated incidents 
but rather the product of a policy for dealing with political 
dissidents. Such reports continue to emerge.
    Human Rights Watch estimates that there are approximately 600 known 
political prisoners in Tibet, most of them monks and nuns.
    A Tibetan arrested in Lhasa in August 1999 for trying to raise the 
Tibetan flag in a public square, Tashi Tsering, was brutally beaten 
before being taken away by Public Security officers. In March 2000, he 
was reported to have committed suicide in prison a month earlier. In 
April 2000, a further death in custody was reported, that of Sonam 
Rinchen, a farmer from a town near Lhasa. He had been arrested with two 
others in 1992 for unfurling a Tibetan flag during a protest and was 
sentenced to fifteen years in prison. Although information is difficult 
to obtain, a study by the Tibet Information Network suggests the 
incidence of deaths in detention in Lhasa's Drapchi prison among 
prisoners due for release in 1998-1999 averaged approximately 1 in 24. 
Several such deaths were reported as suicides.
    In one notable incident in May 1998, political prisoners in Drapchi 
staged major protests to coincide with a visit from a European Union 
delegation. The protests were non-violent, but the authorities' 
reaction was severe: one monk, Lobsang Gelek, died after he was shot. 
His family was later told that he had committed suicide. The 
authorities also attributed the deaths of several others prisoners who 
had demonstrated to suicide, despite credible reports that they had 
been beaten. Four nuns who had protested all died on the same day in 
the same way while held in strict solitary confinement. The authorities 
claimed they had committed suicide, but unofficial reports said they 
were singled out for particularly harsh treatment as suspected 
ringleaders of the protests.
    At least ten prisoners are believed to have died in the aftermath 
of the protests. Those subjected to beatings are reported to have 
included several nuns known to already have had their original 
sentences extended for continued non-violent protests in prison. Most 
prominent among them is Ngawang Sangdrol, one of several nuns who 
smuggled a recording of political protest songs out of prison in 1993, 
and whose sentence was increased to 18 years.
    To date, the Chinese government has been evasive in responding to 
European Union and NGO questions about the Drapchi protests, but it is 
clear that the imposition of arbitrary extensions to their sentences is 
a further abuse affecting Tibetan political prisoners. Only last week 
in fact, nine Tibetan prisoners in Kandze, an important town in the 
eastern reaches of the Tibetan Plateau, were reported to have had their 
five-year prison sentences for participating in a peaceful protest in 
October 1999, increased to ten-year terms.
    The Chinese authorities have also been unresponsive to concerns 
expressed by the United Nations Working Group on Arbitrary Detention 
about the cases of three Tibetans who had their sentences extended for 
staging a peaceful political protest during the Working Group's visit 
to Drapchi in October 1997. To date, Chinese authorities have refused 
to adequately explain their actions. Nor have they explained their 
failure to release Ngawang Choephel, the well-known Tibetan 
musicologist who was arrested while doing research in Tibet in 1995, 
and whose detention the Working Group has formally declared to be in 
contravention of the Universal Declaration of Human Rights.
    Human Rights Watch is also concerned about fifty Tibetan students 
detained late last month when they sought to return home via Nepal 
after previously leaving Tibet to further their education in India. 
They, too, may be victims of arbitrary detention. The Chinese 
government should release them immediately absent evidence that they 
have engaged in criminal acts. None should be held for peaceful 
political activity and all should be granted internationally recognized 
due process protections, including the right to be informed of the 
charges against them.

          THE INDIVIDUAL EXPERIENCE OF HUMAN RIGHTS VIOLATIONS

    One account included in the new Human Rights Watch publication, 
``Tibet Since 1950: Silence, Prison, or Exile,'' tells the story of a 
young Tibetan student from the eastern reaches of the Tibetan Plateau, 
outside the boundaries of the Tibet Autonomous Region. (Such areas to 
the east of the TAR are composed of lower level Tibetan autonomous 
units. They are distinct from the regions that comprise the TAR but 
they are very much a part of the Tibetan world, in terms of history, 
culture, and nationalist identity and activity.) Although this young 
man's story does not exemplify the brutality of imprisonment 
experienced by many of those whose cases I have raised, it gives a 
broader picture of the reality of living under conditions in which 
respect for basic human rights is not a given. In the account, the 
student describes his struggle, in his region's minority institute, to 
have several courses taught in Tibetan rather than Chinese, and to have 
a Tibetan language publication reinstated to serve as an outlet for the 
creativity and intellectual activity of the institute's Tibetan 
students. The publication was reinstated, but was soon subjected to 
official censorship, which weighed more and more heavily on the 
student. Finally, when he himself authored a piece which alluded 
indirectly, but clearly, to the subordinate status of Tibetans, he was 
confined to the school compound and effectively barred from classes. In 
one stroke, he saw his future possibilities dashed; not for vocal 
protests for Tibetan independence, not for denouncing human rights 
violations, but simply for expressing discontent with the lot of 
Tibetans in China as he saw it. At that moment, he decided that his 
only alternative was to leave his family, friends, and the life he had 
known behind and flee into exile. That flight in itself was not without 
danger, but he made it over the border into Nepal and then into India. 
This student's story will serve, I hope, to demonstrate that human 
rights concerns in Tibet are important beyond the cases of those who 
engage in the most vocal forms of protest, or whose religious 
veneration of the Dalai Lama is under attack. Violations of human 
rights in Tibet resonate broadly into the everyday lives of Tibetans 
across the board.

                            RECOMMENDATIONS

    Time and again since 1989, the U.S. government has voiced its 
intention to hold China accountable for its abysmal failings in 
safeguarding some of the most basic human rights of its citizens. The 
President and other senior administration officials have raised the 
issue of human rights violations in Tibet with President Jiang Zemin 
and other senior Chinese officials during summit meetings and other 
official gatherings. This is to be welcomed, but it has not resulted in 
meaningful, positive change. In fact, human rights conditions in China 
have noticeably deteriorated in the past year or more, something 
attested to in the State Department's most recent annual report.
    On the other hand, China is clearly sensitive to its international 
image and standing. That is why it has vigorously resisted any debate 
on its human rights record at the annual meetings of the U.N. 
Commission on Human Rights in Geneva. And under pressure, it has 
signed, although not always ratified, a number of important U.N. human 
rights treaties, including, most recently, the international covenants 
on civil and political rights, and on economic, social, and cultural 
rights.
    We recommend the following:

    (1) If Congress chooses to end the annual trade review and grant 
China PNTR, the existing review process must be replaced by a credible 
mechanism which can ensure that there is a continuing spotlight on 
China's human rights record. To this end, Human Rights Watch supports 
the formation of a standing, bipartisan human rights commission, as 
proposed by the House of Representatives in the bill it passed last 
month granting PNTR. We urge the Senate to join in enacting legislation 
to create such a commission, to include both Congressional and 
Executive branch members and a permanent staff and to empower it to 
monitor human rights conditions in China and Tibet, including the state 
of religious freedom and worker rights, and to publish an annual report 
on its findings.
    The legislation establishing the commission should provide for some 
staff to be based in Beijing and Lhasa, as well as in the U.S., in 
order that effective, on-the-ground monitoring can be undertaken. In 
addition, the commission's annual report, including its findings and 
recommendations relating to U.S. policy and action, should be the 
subject of regular Congressional debate and vote, to take place before 
a designated date each year, after the report's delivery to the House 
and Senate. This will help ensure that human rights abuses in Tibet and 
China remain a key issue on the U.S.-China agenda.

    (2) The President, when he meets President Jiang Zemin, as at the 
expected summit meeting this fall during the APEC conference in Brunei, 
should speak out both publicly and privately, urging China's full 
compliance not only with its commitments to respect global trading 
rules but with its commitment to respect its international human rights 
obligations.

    Specific steps the U.S. should recommend to help improve human 
rights in Tibet include:

    <bullet> Ending the reeducation campaigns in the Tibetan nunneries 
and monasteries;

    <bullet> Releasing unconditionally all Tibetans imprisoned or 
detained for their peaceful exercise of the right to freedom of 
expression;

    <bullet> Allowing the United Nations Committee on the Rights of the 
Child or another international body immediate access to the Panchen 
Lama recognized by the Dalai Lama;

    <bullet> Permitting the U.N., foreign journalists, diplomats, and 
independent human rights monitors regular access to Tibet. This would 
be a positive, constructive confidence-building measure.

    Senator Thomas. Thank you, sir.
    All right. We are down to our last witness, Dr. Napper.

STATEMENT OF ELIZABETH NAPPER, PH.D., CO-DIRECTOR, TIBETAN NUNS 
                   PROJECT, SAN GERONIMO, CA

    Dr. Napper. Mr. Chairman, I would like to thank you for 
allowing me to be here today. My name is Elizabeth Napper and I 
have a Ph.D. in Buddhist studies from the University of 
Virginia. After teaching there and at Stanford and an 
intermediate teaching stint at the University of Hawaii, since 
1991 I have been working full-time with the Tibetan Nuns 
Project.
    I have been going in and out of Tibet during those years, 
but I am mostly based in north India working with the refugees 
who are coming out as a result of the appalling human rights 
and political situation in Tibet. I have a long-term view of 
this, having been going in for so many years, and although 
things briefly got better over the 1980's, since the early 
1990's, it has been a steady tightening up and really moving 
backward.
    We support about 500 nuns now, and of that number, 80 
percent of them have come from Tibet since 1990. I would say 
40--I do not have an exact figure, but approximately 40 of them 
have been imprisoned. They have engaged in peaceful 
demonstrations in Tibet. A demonstration is holding up a flag 
and saying, free Tibet, or saying, long live the Dalai Lama. 
What constitutes grounds for beating, imprisonment, and torture 
is the smallest thing. All of these demonstrations have been 
peaceful.
    And the reaction is immediate and severe. It is beatings as 
you are on the way to the prison, and it has been documented, 
and electric cattle prods in all the orifices of the body. One 
of the most popular ones is the arms get tied behind the back 
and pulled up and hung over something in the ceiling so that 
the shoulders tend to get dislocated. I myself have heard these 
stories many times from those who have come out of Tibet. I do 
not doubt for a moment they are true. They are repeated with 
such--the details are so much the same.
    Now, what has happened over the years is that the process 
of stopping these demonstrations has really been refined to the 
point where they almost cannot happen anymore. It used to be 
you had 15 minutes. Now you have maybe 15 seconds, a half a 
minute. There are surveillance cameras. There are secret police 
everywhere. There are police all around.
    A detail I just learned yesterday from someone who had 
recently been in Tibet. The monks and nuns have especially 
demonstrated because they are individuals, and so they do not 
have the same repercussions on the family, which is what gave 
them the freedom to take this upon at least themselves. But now 
it has been linked to the other members of the monastery or 
nunnery, so they know that if they demonstrate, there is a 
chance that everybody in the nunnery will lose their ration 
cards or be evicted. So, the process of demonstrating has 
really been clamped down on. The need for it has not lessened 
at all.
    Over the years, photographs of the Dalai Lama are not 
allowed. I have been taking tour groups into Tibet. One year it 
was just so poignant. We got into a back room of a nunnery and 
the nuns were just in tears talking to us as they described the 
re-education committee that had moved into the nunnery and was 
going to stay until everyone signed a denunciation of the Dalai 
Lama, and their choice was sign or be kicked out. There were 
not choices. That is why this steady stream of refugees into 
India continues because there is no religious or political 
freedom.
    Now, the other thing that has happened alongside of this, 
because a number of nuns were coming out and every year we 
would get four or five, and this year for the first time no 
nuns came out. Last year it was three, and they had been 1 year 
out of prison before they came out. They tend to leave once 
they are out of prison because, assuming they have survived 
this--and they do not all survive. But once they are released, 
they are not allowed to go back to their home nunnery. They are 
sent back to their families, to their villages, told not to say 
anything about what has happened to them. They are denied 
access to the medical system, and they have all been beaten and 
have had such poor nutrition that they are in terrible health. 
Usually they give up after a while and they come out into 
India. Now, that is not easy because they can get a ride near 
the border, but they still have to walk 3 weeks to a month over 
the mountains. So, pretty much the people who were getting out 
of prison were coming out.
    Well, they are not getting out of prison anymore. As Elliot 
said, the sentences are being increased. There is one young nun 
who demonstrated when she was 15 and was arrested, and over the 
years, her sentence has gone up and up. She has been in prison 
for 7 years now, and her sentence is up to 17 years.
    What are the things that they do that cause this? A group 
of them made a tape singing freedom songs and smuggled it out 
at Tibetan New Year about 2 years ago. And the authorities 
tracked down who had made that tape and all of their sentences 
went up. These visiting delegations come through and the 
prisoners are desperate to get the word out, so they stage a 
demonstration, and then they are beaten and their sentences go 
up.
    So, at this point I do not know the exact number. Nobody 
does because there is no monitoring of the prisons, but 
certainly 100 nuns languishing in prison and more or less the 
key has been thrown away. So, it is a very difficult situation 
in Tibet.
    Now, in India we sort of get the overflow of this, and a 
lot of refugees come out. It has been hard organizing the aid 
to help them. So, I guess the recommendation that I would like 
to make is that people remember that things are going on on 
many different levels, that the dialog with the Dalai Lama is 
absolutely important in working out the political situation. 
But there are smaller levels of it going as well. There are 
refugees coming out who need help and support.
    Aside from the immediate political situation, we are 
building up an educational system, and what we are really 
trying to do is train a generation of women who will be leaders 
in Tibet. What we would really like is for the climate to 
loosen up, for it to be possible for them to go back and set up 
nunneries and teach, not just religious education, but building 
in a modern Tibetan, English, social studies, mathematics. 
There has not been much education in Tibet. There is a 
tremendous need for education, and we are training a generation 
who could go back and teach.
    The pressure needs to be kept on on all these different 
levels. The human rights issue should not go away because the 
political issue is kind of not moving ahead. Pressure for 
education, to try to get the dialog going on different levels 
so that maybe some of the education that is being gained in the 
exile community can be made available to the people in Tibet.
    Actually it is going the other direction. This group of 
students who were arrested--the government does not like the 
fact that the education is out and people come out to get it, 
and then they all want to go back to Tibet. But it is getting 
harder and harder for that to happen.
    So, I guess what I would press for--and especially working 
with women, and we are a bit of a subset. We tend to get 
overlooked in some of the funding decisions because people 
think the big picture is more important--is what I see as 
important is to push it on many different levels at once and 
keep pushing steadily because over time I think the human 
development is happening and I hope there will come a time to 
slot that into Tibet and really help the situation there.
    Thank you very much.
    [The prepared statement of Dr. Napper follows:]

               Prepared Statement of Dr. Elizabeth Napper

   the current situation in tibet: one step forward, three steps back
    My name is Elizabeth Napper. I have a Ph.D. in Buddhist Studies, 
with a focus on Tibetan Buddhism from the University of Virginia. I 
have taught at UVA, at Stanford, and at the University of Hawaii. My 
current position is Co-Director of the Tibetan Nuns Project.
    I have been visiting Tibet on a regular, almost annual, basis since 
1987, and since 1991, I have been spending the bulk of my time in India 
working with Tibetan refugees there. More specifically, I work with 
refugee Buddhist nuns, almost all of whom have fled Tibet in the years 
since 1990, and therefore most of my remarks have to do with the 
situation regarding nuns.
    I find the title ``The Current Situation in Tibet: One Step 
Forward, Three Steps Back,'' very appropriate, as it certainly mirrors 
my experiences in Tibet over the years. I would say that the one step 
forward took place in the mid-eighties and that the steps backwards 
have been happening from 1988 or 89 on, with the current situation in 
Tibet being the most restricted and tightly controlled that it has been 
since the liberalization that began in the early 1980's.
    The Tibetan Nuns Project, based in Dharamsala, India, with a small 
U.S. office in Berkeley, California, supports almost 500 nuns living in 
North India, most in the Dharamsala area. Of that number approximately 
80% have fled Tibet in the years since 1990. Included among them are 
approximately 40 nuns who demonstrated for Tibetan independence in the 
years from 1987 to 1995 or 1996 and as a result were arrested, beaten, 
tortured, and imprisoned, as well as a number more who fled Tibet in 
fear of arrest because they had either demonstrated or engaged in other 
activities that are punishable in Tibet by arrest and torture such as 
putting up posters in support of Tibetan freedom.
    The stories they tell of their experiences are quite uniform. If 
one demonstrates--and these demonstrations are all peaceful, generally 
consisting of standing up and waving a Tibetan flag while chanting 
slogans such as ``Free Tibet,'' ``Chinese go back to China,'' or ``Long 
Live the Dalai Lama,'' one is immediately arrested. The beatings start 
in the vehicle on the way to the police station and continue through an 
interrogation that can take place over several days. Various 
instruments of torture are routinely used such as electric cattle prods 
inserted in the orifices of the body, electric shocks that knock a 
person across the room, described by one nun as ``a pain that pierced 
the heart,'' another called ``the airplane'' in which the arms are tied 
behind the body and then the rope is put over something hung from the 
ceiling so that the person is pulled up in such a way that shoulders 
are often dislocated.
    As far as I can make out from the accounts given, sentencing 
generally takes place without a trial, and for most of the nuns we work 
with, time spent in prison was two to three years. During that time, 
the systematic torture ceased, but they were still beaten for the least 
thing considered an infraction. Many were put to work in fields. Many 
more describe having to clean toilets--this in itself might not seem a 
torture, but they were given no implements and had to use their hands. 
After the work was completed, they had no soap or facilities for 
cleaning up and so had to live all the time with the smell of human 
excrement on their hands.
    Upon release, nuns were not allowed to return to their nunneries. 
They were told to return to their families and not speak at all about 
their prison experiences. Most had health problems stemming from the 
abuse and poor diets they had endured. I have heard some accounts of 
nuns released from prison into the hands of the Tibetan Medical 
Hospital at times when they were close to death and the authorities 
preferred to have them die in the hospital rather than in prison. 
However, the more common situation is that the nuns leave prison with 
serious health issues and are then denied access to medical care, 
sometimes because they cannot afford the treatment, but more often 
because they have been labeled politically suspect and thus the 
treatment system is instructed not to offer them care. It is these 
impossible conditions that they face upon release that has impelled so 
many to undertake the arduous trip across the Himalayas to freedom in 
India.
    Over the years, we have seen a change in this pattern from two 
sides. First, the number of demonstrations has definitely lessened as 
the authorities have stepped up their means of apprehension. There are 
now surveillance cameras at strategic locations all around the Barkhor, 
the central square in Lhasa where most demonstrations have occurred. 
Thus if a demonstration does take place, the authorities have a visual 
record and can track down all who participate, if they should happen to 
escape. However, few do escape because their are police stations all 
around the square and plain clothes police always mingling with the 
crowd, so that a demonstration that used to last for fifteen minutes to 
a half hour before the police moved in has now been quelled and the 
demonstrator dragged away within a maximum of two to three minutes. 
Since this has reduced a demonstration to a nearly futile gesture sure 
to lead to years of imprisonment, the number of demonstrations has 
definitely diminished.
    The other factor that has changed is the length of imprisonment. In 
the early years, it was, as I mentioned above, generally two to three 
years. Every year a certain number would be released and every year 
four or five would escape to India and eventually arrive in Dharamsala. 
In recent years, although there are still large numbers of nuns in the 
prisons around Lhasa, very few are being released. Two years ago at 
Tibetan New Year, a number of nuns made a tape singing songs about 
their imprisonment and about freedom and smuggled it out of the prison. 
It eventually reached India and was widely disseminated. The Communist 
authorities tracked down the nuns who had made the tape and all of 
their sentences were increased. Sentences are also increased for a 
variety of reasons, such as speaking out to visiting delegations, as 
well as many things more petty, and so, for instance, one nun who was 
arrested at the age of fifteen and has already served seven years is 
now up to a sentence of seventeen years. This year for the first time 
no nuns who have served in prison have come to us in India seeking 
assistance. The three who arrived last year had already been out of 
prison for a year before they decided the situation in Tibet was simply 
untenable and they fled into India.
    However, the fact that there are not a lot of new releasees from 
prison fleeing into India does not mean that the nuns are not still 
coming. They are, still in substantial numbers, because all over 
central Tibet, the level of repression continues to escalate in the 
monasteries and nunneries. In 1987 while taking a group of tourists to 
visit one of the nunneries in the Lhasa area, our visit became a very 
emotional one as a group of nuns in an inner room broke into tears 
telling us about how a reeducation unit has just moved into the 
nunnery, and they were now being subjected to daily reeducation 
sessions, the purpose of which was to cause them to sign a written 
denunciation of the Dalai Lama. Their choice was to sign that 
denunciation or face expulsion from the nunnery. The year before in 
Shigatse with a different group, I met two aged and very poor nuns who 
had recently been expelled by the Communist authorities along with 
forty others from the small nunnery they had recently rebuilt with 
their own hands. The reason was that they had rebuilt it without 
official permission and the authorities suddenly arrived one day, 
forced the nuns to leave, tore the buildings they had worked so hard to 
restore down once again.
    At the same time that this process has been going on over the past 
two to three years, the Communist authorities have introduced and 
enforced a policy forbidding the display of any photographs of the 
Dalai Lama. At first they were taken out of public displays in the 
monasteries and nunneries but still allowed in monks and nuns rooms. 
Eventually this too was banned, and a systematic search was undertaken 
to make sure that every single picture had been removed. In 1997 it was 
still possible to see the occasional picture that was tucked away in a 
discrete corner. By late 1998 there was not a single one left, and in 
fact, when taking a tour group to visit a village farmhouse along the 
road from Shigatse to Lhasa, I was disheartened to see that the family 
was no longer even allowed to display a family altar, which is 
traditional in every Tibetan home. That indicated to me a return to 
levels of repression I had not seen in Tibet--when I first visited 
Tibet in 1987, most houses had altars except for those of some of the 
higher placed cadres who were still being politically cautious. (What 
they tended to have up was an old photograph from mid-1950's that was a 
group shot of the Dalai Lama, the Panchen Lama, Mao Tse Tung, and Zhou 
En Lai.) By the early 1990's, everyone again had an altar, and I 
consider it an ominous sign that they have once again been forbidden. I 
don't know how widespread that rule is; I do know that pictures of His 
Holiness the Dalai Lama are now absolutely not allowed.
    I was last in Tibet in October of 1998 and I found the political 
climate there the most repressive that I have experienced in Tibet. The 
atmosphere of fear was palpable. Monks serving as caretakers in the 
monasteries I would take my tour group to were noticeably cautious 
about speaking to me, and I found the general climate so alarming that 
I did not contact old friends I've made over my years of visiting Tibet 
because I really feared the repercussions that might come from their 
having contact with a Tibetan speaking American. This sense of Tibet is 
echoed by the stories the most recent arrivals to India tell, by 
conversations I have with other American friends who go regularly into 
Tibet. Certainly, as far as political and religious freedom are 
concerned in central Tibet, the situation is dire and in fact steadily 
worsening.

    Senator Thomas. Thank you. Very good. I thank all of you. I 
really do appreciate it very much. I guess in general terms I 
doubt that anyone would disagree with many of the things that 
you have said. The question is how do we cause this to happen, 
to change.
    The bank thing is interesting. Could you just be really 
very brief? Who thought up this bank relocation business?
    Mr. Ackerly. As far as we know, it was a plan devised by 
Chinese planners who brought it to the bank.
    Senator Thomas. I am sorry. Who did?
    Mr. Ackerly. Chinese planners.
    Senator Thomas. I see.
    Mr. Ackerly. And it was brought to the bank. It is 
something that just absolutely fell through the cracks at the 
bank. But then when it was brought to the attention of the 
bank, instead of distancing themselves from it, they circled 
the wagons. Instead of improving the documents, we believe they 
just doctored the documents to make the project look better. 
So, it has been a very really discouraging experience dealing 
with them and trying to get them at this point, now that they, 
I think, realize what is going on, to get them to distance 
themselves from it.
    Senator Thomas. I understand the difficulty, but if Tibet 
is to be part of China--I presume that is what people expect to 
happen in the long run, a part of China--you indicated that 
building this pipeline then takes Tibetan resources into China. 
How do you separate? That is like saying Indiana's resources 
are going to Illinois.
    Mr. Ackerly. I think it would be more comparable to 
resources that were under a Native American reservation and the 
idea that there should be a contract which is enforceable.
    Senator Thomas. So, your view is that Tibet ought to be a 
separate country--two Chinas, two, three Chinas, four Chinas--
and it ought to have its own resources. It ought to have its 
own government and all those things. That is your view of the 
future.
    Mr. Ackerly. Essentially. They should have some 
decisionmaking over those resources and benefit from those 
resources.
    Senator Thomas. Some decisionmaking is quite different than 
being an independent government that runs itself pretty much 
apart from China. Is it not?
    Mr. Ackerly. It is. I think there is a lack of specificity 
here on the part--it is the Dalai Lama who has been 
negotiating. I think partially he does not want to be too 
specific yet before getting to the table. He wants to try to 
work this out and not set up too many things which the Chinese 
will object to.
    Senator Thomas. I understand that. It is hard to know.
    I guess the human rights thing at the U.N. was not just 
Tibet, though, was it? It was human rights in all of China.
    Mr. Ackerly. That is right. It was a China resolution which 
mentioned Tibet.
    Senator Thomas. Dr. Sperling, you indicated that not having 
the annual review of so-called most favored nation and going to 
this permanent one then requires--what was unique about doing 
it every year? It was approved every year.
    Dr. Sperling. Yes, but at least it focused the spotlight, 
and it was not always taken for granted. As the years went on, 
yes, it began to be taken for granted, but I can remember back 
several years ago when this was a very serious issue of debate 
and it really did focus the spotlight on human rights in China, 
much as you are doing with the hearing that we are having this 
morning. It is extremely important. Human Rights Watch believes 
that the spotlight must be kept on China and that what is 
transpiring in Tibet be known.
    Senator Thomas. Do you think the human rights in Tibet are 
different, worse than they are in other parts of China?
    Dr. Sperling. Well, I do not know if monks and nuns in 
Guangzhou or in Beijing--well, in Beijing actually you could 
make that case--are also being required to swear their 
allegiance to the Chinese state and to disavow the Dalai Lama. 
I am saying this somewhat facetiously because the cases are 
qualitatively different. They are qualitatively different 
because with one you are dealing with, first of all, a Tibetan 
tradition. There is a lot of nationalism behind this. Now, 
Human Rights Watch does not take a position on the structure of 
relations between Tibet and China, but we do believe that 
whatever the Tibetans wish to express politically, they should 
be allowed to express in an atmosphere free of any coercion, or 
any violation of their human rights. Now, that nationalist 
background is really very much emphasized in the context of 
this struggle because of the elements of Tibetan Buddhism. 
Tibetan Buddhism is markedly different from the Buddhism that 
was and is practiced in China in terms of its rites, its 
rituals, and its language. All this has imbued the Tibetan 
situation with a qualitatively different structure and air than 
any other human rights issue that you have in China. It very 
much becomes a national issue.
    So, the methods used to suppress it and the harshness of 
those methods are often quite different than what you have in 
China. In addition, and here I am talking simply about the 
context, Tibetans see this not as a question of some political 
ideas, suppressing certain other political ideas which the 
state does not like, but as a question of their very identity. 
Now, we can disagree with this view, but this is how it is 
perceived by Tibetans: to them these issues of religion really 
impinge upon their identity.
    Senator Thomas. Dr. Napper, I am really interested in your 
views. If the Buddhists were able to exercise their religious 
activities, is it the religion they are protecting, or are they 
protecting the political sovereignty of Tibet? Could you 
separate those two? Could there be an active Buddhist community 
there living under a Communist government?
    Dr. Napper. I think there could be if the government would 
back off a bit. It has become very linked. Peoples' Buddhist-
ness is their Tibetan-ness. Now allowing them to practice their 
religion really is not allowing them to be Tibetans.
    Senator Thomas. Well, let us assume that they do allow 
them, but they do not govern themselves.
    Dr. Napper. If they were allowed that, then a lot of this 
problem would go away. I actually I think a lot of the Chinese 
policies are foolish because they are making their life harder.
    Senator Thomas. It is a little hard for some people who are 
not involved to differentiate between does the Dalai Lama want 
to govern Tibet or practice a religion perhaps under another 
kind of government? Do you want to respond to that?
    Dr. Sperling. Well, you know, the traditional Tibetan 
political system has been termed by the Tibetans as chos srid 
zung 'brel which means basically a combination, a union of 
religion and politics. But the Dalai Lama himself has 
explicitly said that once the political question is resolved, 
he does not want to have political authority in Tibet. He said 
that very clearly.
    Dr. Napper. He says that again and again publicly.
    Senator Thomas. That is an important issue I would think. I 
understand because the Chinese are persecuting other people in 
religious things as well, not just Tibet. But as you say, it is 
unique.
    Well, thank you so much. I do think, as you have suggested, 
there needs to be a focus continued. You all are helping to do 
that, of course. I do think, Dr. Sperling, it has been talked 
about in public some. I have been to China several times. We 
always bring it up. The last time I was there, there was a 
Mormon activity there and so on. But certainly it is not as 
focused as it ought to be.
    So, thank you so very much for being here. We appreciate 
it. I hope you will continue to work at it and stay in touch 
with us if you think there are things we can do. Thank you so 
much.
    The committee is adjourned.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]


</pre></body></html>
